        SEMIANNUAL     REPORT

APRIL    i - SEPTEMBER        30,   ]981

OFFICE    OF   INSPECTOR      GENERAL

  U.S.    DEPARTMENT     OF    LABOR
                                                        TABLE       OF CONTENTS
                                                                                                          Page
PREFACE ......................................................                                            (i)

EXECUTIVE             SUMMARY............................................                                  i

PART I - SIGNIFICANT    PROBLEMS, ABUSES OR DEFICIENCIES     AND
  RECOMMENDATIONS    FOR CORRECTIVE ACTION ......................                                          1

    EMPLOYMENT   STANDARDS  ADMINISTRATION  .........................                                      1
        Office  of Workers'  Compensation   Programs ................                                      1
        Federal  Employees  Compensation   Act ......................                                      2
        Black Lung Benefits   Proqram .............................                                       11

    EMPLOYMENT   AND TRAINING   ADMINISTRATION   ....................                                     27
        CETA Grants to Local and State Prime Sponsors ...........                                         27
        Office of National    Programs .............................                                      a7

    MINE       SAFETY          AND     HEALTH          ADMINISTRATION           .....................     51

    DEPARTMENTAL    MANAGEMENT ...................................                                        51
        Year-End   Spendino ............ ..........................                                       61
        Consultant    Service Contracts ...........................                                       52

    ORGANIZED             CRIME        AND      LABOR        RACKETEERING         ....................    64

PART       II - SUMMARY                OF     OIG      ACTIVITIES           .........................     74

    OFFICE         OF     INVESTIGATIONS                 ..................................               7_

    OFFICE          OF AUDIT ...........................................                                  82

    OFFICE         OF     LOSS       ANALYSIS            AND      PREVENTION      ....................    97

    OFFICE         OF     ORGANIZED             CRIME        AND    RACKETEERING      ................   i03

PART       III-         OIG      COMPLAINT             CENTER .............................              112

PART       IV - MONEY              OWNED        TO THE           DEPARTMENT      OF LABOR ............   113

APPENDIX ....................................................                                            114
      Audit Resolution    Activity ..............................                                        114
      Status of Unresolved     Audits ............................                                       115
      Summary  of Audit Reports     Issued ........................                                      116
      List of Audit Reports     Issued ...... .....................                                      117
                                                             PREFACE



This     is     the       sixth        semiannual               report           of       the       U.S.           Department           of

Labor,        Office        of       Inspector            General           (OIG),           submitted                  pursuant        to

the    requirements              of    the        Inspector          General           Act         of    1978.              The     report

covers     the       period           from        April        i,    1981       through             September                30,     1981.

During        thls        reporting              period,        we    closed              339       investigations,                    and

issued        255        audit        and        loss     prevention                 reports.                    Our        audit     work

during     the       period          resulted           in     $78    million             in       Questioned                costs     and

costs     recommended                for     disallowance.                  Our       investioative                     work        durino

the     period,            includlng              program            fraud,           employee                   integrity,            and

organized           crime       and    labor        racketeerino                 investigations,                        resulted        in

114    indictments           and       55 convictions.



Audit     Resolution

Perhaps        the        most        signiflcBnt               sin_le           accomplishment                         durina        this

period     has       been       the     resolution              of    $301       million                in       audit        findinos,

resultin_           in    the     disallowance                 of    $103.8           million.                   This       backlog     of

unresolved           audits           had        accumulated              over        e    period                of     years.         The

failure        in     the       past        to    resolve           these        audits            in        a    timely          fashion

had     been     a       source        of        great       concern            to     the         Office              of     Inspector

General.            The     personal               attention              and        leadership                   given        to     this

issue     by     Assistant             Secretary               Angrisani             was       a    critlcal                 factor     in

the     resolution              of     these        audits.               Policies              are       now          _n     place     to

ensure     prompt          resolution             of     all    future          audit          findinos.

                                                                    (i)
Inspector           General          Priorities

Historical]y,                 the         Office        of     Inspector              General            has     devoted           the

great        majority                of      its        audit            and      investigative                   efforts           to

Comprehensive                 Employment           and       Training           Act     (CETA)       programs.               During

this     reportino                 period,        we     have        given        greater           emphasis            to       other

areas        of     vulnerab_l_ty                  to     fraud          and      waste        _n        the     Department's

proorams--most                     notably         the        Federal            Employees            Compensation                 Act

(FECA)         and           Black         Lung         programs            of        the      Office            of     Worker's

Compensation                 Proorams         (OWCP),          Emp]oyment               Standards              Administration

(ESA).             Those           initiatives,                and        the      problems               we      found,           are

descrlbed           in       the    ESA     sect]on          of     the     flrst       part        of    the     report.           We

have     made            recommendations                     for         administrative                  and      legislative

action       to     he]p       reduce         fraud          and     waste       _n     these        programs.               I    have

been     very       encouraged               by    the       attention            and       effort        o_ven        by    Deputy

Under     Secretary                Co]lyer         to    these           anti-fraud           and        waste        efforts       _n

the    worker's           compensation              programs.



We    will        continue,           as    our        resources           permit,          to   further              expand       our

activities              to    other         major        areas,           such     as       unemp]oyment               _nsurance

and    the regulatory                  programs           of       the    Department,               inc]udino           the       Mine

Safety            and         Hea]th          Administration,                     Labor-_anaoement                      Services

Administration,                    OccupatJ.ona]             Safety        and        Health        Administration                 and

the    Office        of      Federal         Contract          Compliance             Programs.

                                                                   (i_)
Inspector         General Resources

The    Office          of Inspector       Genera]          has a tota]             of 432 staff members.

Of these,          8v are        assigned        to      the      anti-organized           crime        and    labor

racketeering             program,        working           with        the    Organized          Crime        Strike

Forces       of    the       Department        of     Justice.             This    leaves       our     effective

strength      to carry           out the anti-fraud                    and waste responslbilities                    of

the Inspector             Genera]      Act at 345 persons.                    Of this number,             157 are

auditors,         88 are        investigators,                and      32 are      program       analysts.           In

addition,         for Fiscal           Year 1981,          we had          $13.8 million          for contract

audits.           These       funds    have     been        used        almost     exclusively           for       CETA

audits.           As    we     attempt     to    provide            greater        coverage       of    the     many

non-CETA          proorams       of     the     Department,             we   are    severely          limited        by

our resource            levels.        Secretary          Donovan          and Under Secretary                Love1]

have     been          very      attentive          to        this       resource         problem.            It     is

important         that the concerned                committees             of Congress       are aware             that

the    present          resources       are     not      sufficient           to provide         the     level of

coverage,         which,        in my view,           is necessary                to do    a proper           _ob of

preventing             and     detecting        fraud            and    waste       in    the     Department's

programs      and operations.



Mandated      Responsibilities

During       the        last     two     years,          an      increasing          number       of     mandated

responsibilities                have     been       placed          upon     the    Office       of     Inspector

General      by Congressional                 action       and       OMB directives.              For    example,

we     are    reouJred           to      conduct          an        annual        audit     of     end-of-year

spending;         to review        the    Department's                 annual      procurement          plans;      to

                                                         (iii)
review     the     Department's          compliance           with       the     Federal         Procurement

Data System;        to review       sole source contracting                      practices;         to carry

out     cognizant        agency     responsibilities                under        the       "sinole    audit"

reouirements        of     OMB    Circular        A-102,          Attachment          P;    to     audit    the

trust     fund     of     the     Longshore          and      Harbor          Worker's        Compensation

program;     to report          on debts       and debt collection;                    and to meet         many

other    reauirements.            While    each of these covers                   an important            area,

the unintended           result    has been to affect                   greatly       Inspector      General

resources.          This     necessarily             affects            the     time       and     depth     of

attention     we    can     oive    to    fraud        and    waste       issues        in departmental

administration,            and     in     such         programs          as      £ETA,        unemployment

insurance,        worker's         compensation             and     other        very       large     dollar

activities         of     the      Department.               Congressional              review       of     the

collective       impact     of these       mandated          reouirements          on the Offices            of

Inspector    General        would be desirable.



Line Item Budoet

A comolicatino           factor     in addressino             the       true     resource        levels     and

reouirements        of     the     Office       of     Inspector              General      has     been     the

absence      of     a     separate         line        item        budoet         for       this     Office.

Presently,        our    budget     is    a     part    of        the    Departmental            Management

account.      I recommend          that     the budget            for the Office             of Inspector

General     be      reported        as     a     separate           line         item      so      that    the

Department,        OMB     and    the     Congress          are    better        informed          about   and

better     able     to     address        the     resource           needs       of     the      Office      of

Inspector    General.

                                                     (iv)
Law    Enforcement            Authorities

A total        of     168     special          agents       assioned          to      the     Office      of      Inspector

General        routinely          conducts           criminal           investioations               involving            major

organized            crime        and        labor        racketeerino                matters,         complex            white

collar        crime         fraud       cases        and       serious        employee           integrity             cases.

These      agents,           while           "criminal           invest_oators"                and     so      classified

under      the       civil        service           system,         are     not       authorized            to      exercise

basic      ]aw       enforcement              respons_bi]_t_es                   (_.e.,        to    execute           search

and     arrest        warrants,           to    make       arrests,           to      pay     informants)             and     do

not    have      the    concomitant              authority           to     cmrrv        firearms.          This       causes

problems,           such     as       loss     of    evidence           due      to     our    inability             to     make

arrests        or    effect           seizures;          inability,           in some         situations,            to     work

undercover             or         to         protect           adeouateiy                informants              operatino

undercover;             d_ff_cuIty                  in     achievino               the        fullest            level        of

cooperation            from       other         federa],            state,        and       local      aoencies;             and

finally        --     and    of       most     concern         to    me     --     the      inah_lity          of    special

agents     to       protect       themselves              when      conducting            potentially            dangerous

investigations.                   I    recommend           that       special          attention          be        oiven     to

the     need     of    Office           of     Inspector            General        special          aoents          for     such

law    enforcement            authorities.




I   have       been     Inspector              Genera]         _t     the     Dep_rtment             of     L_hor         since

July     18,        198].      It       has     been       a     busy     time.           Managino          the      onooing

audit      and         investioative                 work,          address_no              int_rn_]           manaoement

                                                               (v)
issues        and          morale,         and,       most        importantly,                expanding                  our         work      to

provide           better          prevention              and     detection            of     fraud          and          waste,            have

been        chal]enoino                  tasks.           I     would         like       to     note             that          Secretary

Donovan            and          Under       Secretary                Lovel]        have        been              extraordinarily

attentive              and       supportive           of        the    work       of     the       Office                of    Inspector

General           and      of    me      personally.                 With     their      support             and          the        support

of      the       other          officials           of        the     Department,             I       am         convinced                that

there       will          be    continual          improvement               in   reducing             the        level         of        fraud

and     waste        and        improvino          the        level     of     economy         and      efficiency                    in     the

programs           of      the    Department              of    Labor.



I     wish        to       especially              thank         the        employees             of        the          OIG         --      the

auditors,                 _nvestigators,                  analysts,               technical                 specialists                      and

support           staff          --      who      brine         such        dedication            and            ski]l          to     their

work.         Without            them,      the     accomplishments                    reported             in       this       document

could       not     have         been     achieved.




Thomas        F. McBride

Inspector           General




                                                                     (vi)
                                                  EXECUTIVE             SUMMARY




This     semiannual              report           is      organized             into        four         parts        and     the

appendices.               Part        I    is     divided          Jnto       Department            of    Labor        program

areas     and       describes             significant             problems,          abuses,        and        deficiencies

and     recommendations                    for    corrective             action.            Part     II        is    organized

by      OIG         office          and          provides               information            about            audit         and

investigative                 activities               and     major          accomplishments.                       Part     Ill

contains         information                ahout        Jnouiries             and     complaints              received        by

the     OIO      Comp]aint                Center.            Part        IV    provides         information                 about

money     owed           to   the         Department           of       Labor.         The     appendices              contain

audit      resolution               data         and     a     list       of     eli        audit        reports           issued

durinq        the    reporting             period.



Followino           is    a summary          of    the       hioh]_ohts          of    this     report.



Sionificant              Problems,           Abuses          or     DefJc_encies              and        Recommendations

for    Corrective             Action



-     Deficiencies             in     FECA       Claims       Manaoement

A     major     review           of       1,810        FECA        claimants           in     the        Atlanta           Reoion

identified           inadeouate              efforts          by    OWCP       to    detect        unreported              _ncome

and      insufficient                 efforts           by     employing              agencies            to        meet     FECA

reouirements.                 Thus        far,     our       work       has    resu]ted        _n        DOL    term_natino

or     suspendino             benefits           to     62    claimants,             which      wi]]        yield          annual

savings         of       $572,000.               Other       cases        are        stil]     under           review.          In

                                                                    J
addition,            119        criminal           investigations                  were        initiated;                and      the

project        has    recently             been     expanded          to     a nationwide              effort.



-     FECA     Medical           Provider          Fraud

OIG    investigations                  have       disclosed           that     false       FECA       c]m_ms           have     been

fraudulently               submitted          by    med_ca]           providers           and     that        FECA       has     not

used        debarment            as     an    effective           means        of     reducing              this       practice.

The    OIO     has     recommended                that     the        penalty        for       fJ]ina            false     claims

be     increased            from        a     misdemeanor              to     a     felony         and        has       proposed

deharment        authority              for    FECA.



-     Black     Lung       Program           System       Deficiencies              and     Overpayments                Problem

As    a result        of        two    major       loss     prevention              studies,          the        OIG    found      an

estimated           $36     m_l]Jon           in    Black        Lung        unrecovered              overpayments               and

$4a       million          in     improper           payments              from      1973        to      1980.           Serious

computer        and        internal           control           weaknesses           were        identified,              and      we

concluded           that        insufficient             priority            was     given       by      the       program         to

loss      prevention             and       control.         Recent           efforts        by     ESA       management            to

address       Black        Lung       program       deficiencies               are    discussed.



-     Audit     Resolution

One    of     the     most        significant             accomplishments                  has        been       the     virtual

elimination            of         the        Department's              backlog            of       unresolved                  audit

findings.            At     the        beginning           of     th_s       reporting           period,            79a        audit

                                                                 ii
reports           remained              unresolved                with             outstanding                  mudit         findings            of

$303        million.                  Through             an      intensive                   Departmental                   effort         $301

million,           inc]udino                  $_     million                  of      costs          Questioned                durina            the

current           reportina               period,              has       now          been         resolved,                resulting             in

$103.8        m_llion             enterino            the         debt         collection                 process.              Further,           a

number        of     policies              and       procedures                    have       been         established                 to   help

ensure       that         audit         resolution              problems               do not            recur.




-     InadeQuate            Financial               _anagement                 and       Internal              Controls          at CETA

      State       and      Local         Prime        Sponsors                and      Their        Suborantees

Durino        this        six-month                period,            amounts               Questioned               in    audit       reports

resultino           from              these        deficiencies                      total         $35      million.               A    recent

audit        of        CETA's            cash         manaoement                      system             confirmed              that        CETA

recipients             have           failed        to         provide             effective              control           over       grantee

cash        balances             and       included               a     number               of      recommended                 corrective

actions.




-     ContinuJ.        na Problem              of     Inelioible                   Participants                 in    CETA

Audlts        and         investigations                       continue                to      show         inelioibility                   as     a

major        problem             in      CETA.            During              this          reporting             period,          over          $20

million          was       Questioned                due        to      possible                  ineligible                participants.

An    OIG     study         of        CETA's        eliaibility                      determination                   and     verification

system,            which               recommended                    various                corrective                    actions,              was

completed.



-     OIG    Activities                 Related           to    ONP Contractina

The        OIG       is          focusino             audit             and            _nvestigat_ve                       attention              on

procurement                practices                 in         ETA's              Office           of         National           Proorams.

                                                                        iii
Actions        by     ETA       to       prevent      contractino                problems,         particularly          in

the    area    of     sole       source       procurement,                are    also     discussed.



-     Weaknesses           in    the      Approval       and     Certification              of   Wine     Safety

      Products

A    recent     audit          of       MSHA's     Approval          and        Certification           Center,       which

is     responsible              for       mine      safety           eouipment          approval         and      ouality

assurance,           found          a    ]aroe     hackloo           of    unprocessed           product        approval

appl_cations,                  poor        operatino            procedures,               and      an     ineffective

ouality        control              prooram.          We        made        various         recommendations              to

alleviate           these            problems,           including               the      use      of     third-party

independent               laboratories              to     evaluate               and     test         less-hazardous

mining     products.



OIG    Activity        Data



-       Office        of       Investigations

There      were           50      indictments            and          30        convictions         hased        on     our

investigations.                      Fines,         recoveries,                 savings,         and      collections

resultino        from          _nvestioations            totaled           about       $_ million.



-       Office        of    Audit

We    issued        250    audit          reports     on     DOL      proorams.            Of    the     $4.5     hJllJon

audited,         we        took          exception         to        $78        million      due        primarily        to

improper             financia]                manaoement                   practices             and        ine]ioible

participants.



                                                                iv
    -       Office          of    Loss     Analysis        and    Prevention

    Four    final           loss     prevention            reports          were      issued.          They     concerned

    Black       Lung       prooram       vulnerability             and      loss      assessment,           FECA    benefit

    programs,           and       CETA's      elioibi]ity               determination               and     verification

    system.



            Office          of    Oroanized      Crime       and       Labor       Racketeerino

    Based       on     our       investigations,            64     persons          were       indicted       durino      the

    last    six       months       and     25 convictions              were     obtained.




    Among     the      more       s_gnificant         are:

            -        The     indictment         of        three        officers          of    the     United       Seafood

                  Workers           Local      359    and         five        employers         for       extortion       and

                     prohibited            employer          payments               aris_nn           out      of       labor

                     racketeering           activities            in     the     Fulton        Fish       _arket    in    New

                     York    City;

            -     the       prosecution         in    Delaware           of     six      persons      in    a nationwide

                     ]ahor-]easino            scheme             that         Circumvented            Teamster          union

                     contract            reou_rements,                 with        the        principal         defendant

                  sentenced           to    20 years        imprisonment;

            -     the        recent        indictment         of       an     international            v_ce     president

                     and    the    president         of    a local          union        of   the    Distillery,         Wine

                     and     Allied         Workers         International                 Union       on      charges      of

i                    embezzling          $]O0,O00j
d
                                                                   V
-   two   recent    related      indictments    of 21 defendants        including

    Anthony     Accardo,    Santo    Trafflcante,    Raymond     Patrlarca    and

    the   president        and    secretary-treasurer       of   the     Laborers

    Internatlona]      Union     on charges     of racketeerlno        vlolatlons

    involvlng      a pattern     of insurance    kickback   schemes      totallng

    over $) mi111on.




                                      vl
                                                          PART      I

                      SIGNIFICANT           PROBLEMS,           ABUSES       OR    DEFICIENCIES

                        AND    RECOMMENDATIONSFOR                       CORRECTIVE         ACTION



EMPLOYMENT           STANDARDS          ADMINISTRATION

The    Employment             Standards           Administration               (ESA)       through           its     three

component        offices           --     the    Office       of    Workers'         Compensation              Programs

(OWCP),        the    Office        of     Federal       Contract          Compliance           Programs           (OFCCP)

and    the     W8ge     and        Hour     Division          --    provides         workers'           compensation

to    those     injured         on       their     iobs,        reouires          federal        contractors            and

subcontractors                to        provide         eoual           employment          opportunity,                and

administers            laws        and      regulations             settino          employment              standards.

During       Fiscal      Year       1981,        ESA    was     budgeted          for    $1.23      billion.            The

largest        portion        of     the    ESA        budget       is   expended         for     the        payment     of

benefits        under        the     Federal       Employees'              Compensation           Act        (FECA)     and

the     Black         Lung      Programs,              both        under       the       Office         of     Workers'

Compensation           Programs.



Office     of    Workers'          Compensation            Proprams          (OWCP)

OWCP     encompasses               al]     three         workers'           compensation            programs--the

Division        of    Federal           Employees        Compensation              (FECA),       the     Division        of

Coal     Mine    Workers'            Compensation              (Black       Lung),        and     the     Divison        of

Longshore        and      Harbor           Workers'           Compensation              (Longshore).                During

Fiscal       Year      1980,        over        $784     million         was      paid     in     benefits           under

FECA     and     $660.5        million           under        Black        Lung.         Under     the        Longshore

program,        $294     million           was     paid       _n    benefits            during     calendar            year
]980,        virtually            all        of    which           was      paid          by      private              insurance

carriers          and     self-insured             companies.               Recent             OIG     work        related             to

ESA     programs          has     been       concentrated               almost        exclusively                 on       FECA    and

Black       Lung.




                  Federal        Emp]oyees          Compensation                Act       (FECA)       Program

The     FECA        Program           pays     benefits            to     federal              employees           and          other

covered        workers          who     incur     disabl]ity              or    disease          through           on-the-job

injury       or    exposure.             Durlng        Fiscal        Year       1980,          over       $784     million             in

compensation              and         medical          payments           were        made            to     over           288,000

long-term           and        temporary          disability              claimants.                  For        Fiscal           Year

1981,         payments            are         expected              to         reach            $856         million               for

approximately              281,000           claimants.              FECA       has       grown            from        a    payment

level        of     $190        million           in        Fiscal        Year        1972           to      $984           million

projected          for    Fiscal        Year      1982.



The    major       problems           identified            in    the     FECA      program            are    defJIc_encies

in    claims        management,              inadeouate            attention              to    safeguards                 in     bill

p_yment       operations,              and    vulnerability               to    medical          provider              fraud.



-     C]aims       Management           Deficiencies

Deficiencies              _n    the     management            of     claims         by    claims           examiners              is    a

s_gnificant             prob]em         in     FECA         and     has        received           OIG        investigative

attention           during        this       reporting             period,            A    project           initiated                 by

OIO    in    the     Atlanta          Region,          in    response          to     numerous             allegations                 of




                                                             - 2 -
fraud,          waste,         and        abuse          in     the       program,          identified                 unreported

income          end        Jnadeouate             ongoing            case         file     review            as     significant

problems.



The   project's             objectives               were      to identify            the       fo]lowin#:

        -       FECA        long-term            disability               cases          that     should           be    reviewed

                f_r        possible            reduction             or     termination             of       benefits           as    a

                result        of unreported                   income;

        -       areas         of        administrative                and     procedural               deficiencies             that

                need       correction;

        -       possible           instances             of    fraud        for    further        investigation;                and

        -       areas           for            possible              administrative,                     regulatory,                 or

                legis]ative               initiatives.



The     Atlanta             Project            began           in     November            1980         and        involved       the

participation                      of          seven            other              aaencJes              (the            Veterans

Administration,                    the     Postal          Inspection             Service         and    the        Departments

of    Navy,        Air        Force,           Health          and      Human        Services,           Agriculture             and

Transportation).                        These        aaenc]es           are       among     the        employers           of    the

largest         number        of        FECA    claimants.



The    project             involved            the       development            of    a    profile           of    a    high-risk

claimant          likely           to     have       received           overpayments              or    other          unent]tled

benefits.              This         profile              was    run       against           the        per]od]c          ro!l        of

claimants             in    the         Atlanta          Region.            The      periodic          roll        consists          of




                                                                    - 3 -
those        claimants            receiving              long-term             disability             compensation               on    an

automatic           basis       without            the     reouirement               of     an     individuaI             clalm       for

each     compensation                payment•



This     process           identified              approximately                    3,000        claimants          who     met       the

criteria            of      the         profile,              of        whom        1,810          were       identified               as

originally            having          been       employed             by      the    participating                agencies.                 A

comparison            was       then        made         of     these          claims         with       records          of     wages

paid     by         private          emp]oyers                in     the       states          within         the     region           to

determine           whether          or     not      income          or      wages       had      been       reported          to     the

state        unemployment             offices            for       these       clalmants.



The      1,810           claimant            fi_es            then         were         reviewed           individually                to

identify             those              that          warranted                   further             investigative                    or

administrative                  attention                  to        determine               if      the       clalmant               had

unreported           income          and     the      extent            of    the     claimant's             ability        to      earn

wages        when        disability                lessens              (wage        earning          capacity)             and        to

assure        that       current          medical          evidence           supported            continuing             benefits.



The     project          disclosed             a     number          of      administrative                  shortcomings              in

the    processing              and    management                of claims,            most        notably:

         -     Insufficient                 analysis               of        files       by       claims       examiners               as

               indicated             by    medical            evidence          inconsistent               with     the     injury;

        -      lack       of    follow-up             on      reouests            for    medica]          reports         and       lack

               of    referrals             for     impartial              medical           examinations;




                                                                   - 4 -
           -        inadeouate              efforts        to     detect          unreported              income;

           -        insufficient                 or conflicting                  _nformation              in    files;

           -        inadeouate              investigation                  of    _njuries           by    employing           agencies;

           -        inadeouate               follow-up           by       employing           agencies           to    help     control

                    compensation                costs;      and

           -        inadeouate                 attempts         to    rehabilitate                  and        re-employ        _njured

                    employees.



As    a    result           of        the      initial       review,              approximately                 ]35    of     the   1,810

files          reviewed           were          identified            as     needing          additional              investioation

by    the           employing               agency        and     827       files           were     referred          to      OWCP     for

follow-up                   attention                     due              to          identified                    administrative

discrepancies.                        To       date,      OWCP       has        terminated           or       suspended        benefits

to    67       claimants               resulting           in      savings             of    $572,000            annually.             As     a

result              of     the         project,            ]lO        criminal              Jnvest_.oat_ons                  have      been

initiated,                and     additional              cost        savings           will       be     identified           when     the

cases       are          completed.



The       resu]ts           of        the       Atlanta          Project           have       led        to    the     expansion            of

the       project           to        a]l       regiona]          offices.              Th_s        national           FECA     project

began          in    August           ]98]..



The       degree            of         cooperation                and        support           of        the      seven        agencies

participating                    in     our       investigative                  projects           has        demonstrated            that

employing                agency         participation                 is     crucial          to     reducing          the     costs        of




                                                                      -    5 -
the    program         through      the     elimination               of     fraudulent             claims.              W_th

some     exceptions,          employing       aoencies           do    not       give       adeouate           attention

to thelr        responsibilities            under        the    FECA       program.



Several        cases     investioated         by      OIG     during        the       period       of     this      report

support        the     finding     that    there       is      inedeouate             effort       on     the      part    of

OWCP     to    detect     unreported         employment            by       FECA       claimants              during      the

period        that    compensation         Js paid.             With       the     exception             of    scheduled

awards        (_.e.,      fixed,     lump-sum,           or     term-payments),                    FECA        claimants

may    not      be     employed      wh_le         receivino            compensation.                    Examples          of

related       cases      follow.




•      A      former     posta]      worker        was      charged         in     a     la-count             indictment

       with      collecting         disability           payments           for        an    al]eoed           injury      at

       the       Philadelphia             Post        Office.              Durino           the      time         he      was

       collectlng             payments,          from       1977        through              1980,         he       was      a

         full-time        employee        with        another         organization                 and    his       duties

       included          such      things        as      instructing               and       participating                 in

       basketball            and   swimmino.             (United        States          v.    Branson,             Eastern

       District         of    Pennsylvania)



•      An       air     traffic      controller,                disou_lified                 for     duty          due     to

       work-related             stress,      was       found      to       be     employed           as       a   tractor

       trailer          driver,      while       cert_fyino                to     OWCP       that        he       was     not

       employed.             The   claimant        was      indicted            and     plead       guilty         to     two
        counts     of    makino          false     statements           in order      to       continue       his

        disability           benefits.         He     received          a   suspended          sentence       and

        signed     a     promissory            note     to    repay         $52,096       at     12    percent

        interest.            (United      States      v. Whitehead,            Northern         District       of

        Georgia)



•       A    oenerai     machinist            at     Brookiey      Air       Force    Base       in    MobiIe,

        Alabama,       sustained          a   back     injury          in 1954      and    was    medJcalIy

        disoualified           from      performino          his       duties.       He    was    receiving

        total    disability         benefits          from OWCP at the rate of $864 every

        four    weeks.         An     investioat_on           showed         that    the   man        had    been

        involved        in    construction            work    since         1973    and    had    faIsifled

        reports     to       OWCP   concerning          his       emp]oyment.         He was          indicted

        in    August     1981       on    four       counts       of    making       false      statements,

        includino        false           statements          to    obtain          FederaI       Employees'

        Compensation.            (United States              v. Dawsey,        Southern         District       of

        Alabama)



-   Inadeouate         Attention         Paid to Safeouards                 in Bill Payment

    Operations

The payment        of medical             bills      under    FECA has         been automated               since

1978    with      approximately               $119     million          paid     during        Fiscal        Year

1981.        Despite     controls         desioned      to minimize            losses      through          fraud

and erroneous          payments,         we have found that                 inadeouate         attention       is

paid    to safeouard_no             bill      payment        operations.            As a result             of an




                                                      - 7 -
embezzlement               in        the      bill         payment           operation          in     FECA District                   Office

25,      we   conducted               a      loss          vulnerability               assessment             of        operations               in

six      FECA       district               offices.              The       areas       reviewed            were        bill      payments,

claims         processing,                    manual            compensation               payments,               mail          and      file

operations,              and        computer               security.



Sianificant              problems              in      the      bill       payment        system           include:

          -     The      lack         of      standard             fee       guidelines              for    amounts            approvable

                for     medical              fees;

         -     the        lack         of       separation                 of      functions           in     the         bill     payment

               area,            i.e.,           the          person          who       approves             the          payment         also

                _ssues          the        payment;

         -     Jnadeouate                     supervisory                    review        of         bills             approved            for

               payment              to ensure               ouality          and      prevent         fraud;           and

         -     inadeouate                   verificet_on                   of      whether           medical            services         were

               actually              provided.



-     Medical          Provider              Fraud

Durina        the       reporting                    period,           OIG      special         agents            participated                   in

several         joint               investigations                     in       the      area         of     medical              provider

fraud;        two     are       described               below.

•        A    physician               was            indicted           on      9_     counts         in     an        insurance           and

         mail        fraud          scheme            in     which         he   Js     alleoed         to     have            received           $2

         million               in     payments                 for         false       claims.              One-third              of      the

         counts          involved               fraudulent                 FECA       claims         such         as      bil]ino        FECA
       over     $123,000           for    treating            one      claimant          for     two    on-the-job

       injuries           between       1975     and       1979     when      the     injuries         resulted        in

       less     than        five     weeks       loss        from      work.        In    September           19£1,      a

       $500,000           settlement           was     reached          to     be     divided          between        the

       Departments            of     Labor       (to       receive          $286,000)           and     Health        and

       Human        Services.            (United        States         v.     Kones,       Southern           District

       of    New    York)



•      A    physician         plead       OuJ]ty        to    one      count     of      mai]     fraud       and     one

       count       of     filing     a false          claim       to    the    Federa]          Government           that

       was     related        to    a    false       FECA     claim.          The    physician          was     placed

       on    probation            for    three        years,         fined      $9,000          and     ordered        to

       spend        250     hours        in     community            service         employment.               (United

       States       v. Dent,         District         of     Columbia)



We   are     expanding            our     investigative                work     in       this     area        and     are

exploring          joint     efforts           with        other       federa]         agencies          to     better

control      medical        provider          fraud.



-    Legislative           Changes

In   the     draft        bi]l,      Federa]          Employees'             Reemp]oyment             Compensation

Amendments         of    ]981,     the    Administration                has    proposed          changes        in    the

current      FECA       ]eoislet_on.            The    major        chanoes      proposed         _nc]ude:




                                                        - 9 -
       -    Setting           the          new       compensation                            rate       at         80      percent              of

            pre-disability                          spendable                         income                 and           eliminating

            augmentation                  for      dependents                    in      order         to     provide              claimants

            with      a greater             monetary           incentive                     to     return         to    work;

       -    replacing              Continuation               of            Pay       provisions               with       a        seven-day

            waiting          period         before         a claimant                        can     receive            compensation,

            thus      reducing             the     number          of        minor           claims;

       -    requiring               the      conversion                     of        workers               from        FECA         to     the

            retirement              disability             rolls             at       ape     55;      and

       -    establishing                   compensation                 . for            a     scheduled                award          injury

            (e.g.,          loss      of     a     toe)       as        a    lump-sum                amount,            separate          from

            any          appropriate                      disability                           compensation,                         thereby

            eliminatlno               the        current           Jneouities                  that         result         from        basing

            the       scheduled              award         amount                 on         salary          and        not         allowing

            disability              compensation               during                 the     scheduled               award         period.



OIG   has   recommended               two        additional             changes               to     the      legislation:

       -    the      debarment              from     participating                           in     FECA       of       those        medical

            providers              who     have      engaged                in     certain             types        of    misconduct;

            and

       -    increasing              the      FECA     criminal                    penalty            from      a misdemeanor                    to

            a      felony           for          submitting                      false             statements                 to      obtain

            benefits,              filing          false       reports,                      or     willfully             withholding

            reports.




                                                            - I0             -
                                       Black       Lung      Benefits           Prooram

The    Black       Lung       Benefits          Program,           managed         by   ESA's        Division          of    Coal

Mine        Workers'            Compensation                  Proorams               (DCMWC),           pays         benefits

(monthly           compensation                   payments              and        medical           diaonostic               and

treatment          costs)         to     coal        miners             who    are      totally           disabled           from

pneumoconiosis                  (black            luno)           aris_no            from         their         coal         mine

employment.



In    lg73,    the        administration                of     the       prooram        was       transferred           to    the

Department          of      Labor      from       the     Social            Security         Administration                 (SSA)

under       Part     C    of     the     Federal           Coal         Mine       Health         and     Safety        Act    of

1969.       Part     B of       the     Act     continues            to be         adm_nlstered            by SSA.



The     1977       Federal            Mine      Safety            and       Health         Act,     in     changino           the

standards          for        determining           disability,                called         for       the     payment        of

benefits       either          from     a    Trust        Fund      (when       the     miner's          last     coal       mine

employment          was       before        January          1,    1970)       or     by     the     responsible             coal

mine     operator             (RO),     if      ident_flable,                  when     the        miner's        last       coal

mine    employment             is on     or after            January          1,     1970.



The     changes          in     the     prooram           resulting             from       the      enactment          of     the

1977     amendments             caused        a     rapid         and       slonif_cant             expansion          in     the

program       as    shown       in the        chart       on      the       followino         paoe.




                                                             - 11       -
Black Lung Total Compensation                                                                                                          $726
and Medical Benefits Paid

(Dollars in Millions)




                                                                                                                  $583




                                                                                         $30

         $1             $7                  $14                   $19



Fiscal        1974           1975                  1976                   1977                   1978              1979                 1980
Year
                Note:   Thegraph    doesnot reflectthe$6,132,O00paidduringthethreer'nonth               Fiscal Year t979 and Fiscal Year 1980
                        iiscal year transition period, July 1 through      September      30+ 1976.     payments include lump-sum    retroactive
                                                                                                        payments for claims re-examined
                                                                                                        pursuant to the 1977 amendments.




                                                              -    12-
During    the reporting              period    we conducted          two   studies       of the       Black

Lung     Program.             The     first     of     these      efforts      was       directed         at

identifying           systemic        vulnerabilities           to     loss    existing          in      the

program's        payment       procedures       and processes.             Through    an evaluation

of existing           legislative        and     regulatory       provisions,         documentation

of procedures           and    processes,        and    the    observation         and     analysis       of

actual     operations           in    se]ected       offices,        major    deficiencies              that

could     lead    to     resource       loss     were    identified          and    recommendations

for corrective          action were developed.



In the     second       study,       OIG staff       reviewed        and   eva]uated        the actual

operation        of    the     Program's       automated        claim      tracking        and   benefit

and     medical       bill     payment        systems.        Automated       records        were       then

searched         for     payments           having       characteristics              indicating           a

potential        loss    (e.g.,        duplicate       payment       of benefits         to the         same

clalm     or    for     the    same     medlcal        service,      payments        for    dependents

over     the     age     of     eligibility,           and     payments       to    persons       having

invalld       social security           numbers).        Overpayments         identified         in this

way    were    compared        to recoveries,           and    estimates       of historical             and

contlnuJng        ]oss       were     prepared       together      with      recommendations             for

corrective       action.



A total       of 64 deficiencies              Jn payment       procedures,         automated       system

operations        and data base content,                maintenance,         and management             were

identified        in     these        two     studies.         These       deficiencies           can     be

attributed         to     three        major      problems        found       by    both         studies:




                                                  - 13 -
inadeouate        management     priority         aiven      to     the     identification           and

prevention        of loss,     deficient       computer       systems,       and poor         interne]

controls.



Our    examination      of    automated       payment       records        found    evidence        that

these       deficiencies       have     resulted        in     estimated           loss,       through

unrecovered         overpayments,       of     $35.6    million           (2.6   percent       of    all

payments)      from    Black    Lung     systems.           This    includes       a    $33    million

Ioss    from      benefit    payments       between     July       1973    and     November      1980,

continuing        at a rate of $9.2 million                 annually;       and a $2.5 million

loss from medical           payments    between       January       1977 and November            1980,

continuing        at a rate of $i.6 million annually.



Our analysis        of the computer         data showed:



        -   35,0S5 duplicate          payments    for medical         services;



        -   benefit     payments       to    1,033     cIaimants,          and     1,047      payments

            for    medical     services       recorded        as    havinq       been    performed,

            after    the date of death recorded                for the ciaimant;



        -   68 claims       receiving       monthly    benefit       payments       and 418 cases

            where    medical    payments       were made           by the program          after     the

            responsible       mine     operator       had    assumed        responsibility           for

            the claim;




                                               - 14 -
       -      9,759        claims             reflecting            benefit               payments            _n     excess        of

              maximum        limits;



         -    3,570        claims             reflecting           payments             for        dependents              who   had

              exceeded           the     age       of     eligibility;               and



         -    approximately                    210         claims          receivinG                 multiple               monthly

              benefit        payments.



Our    evaluation             of        the        automated            data         also      revealed             that      bas_c

payment         control             mechanisms                   were          not          routinely              applied         _n

oenerBting           payments.                We    also        found     $44.3        million           in    payments          (3.7

percent         of     the          total)              made       without             consideration                  of      bas_c

validation           criteria             (approximately                 $9      million            of    this        amount       is

also     reflected          in     the        overpayment           amounts            above).            Deficiencies             in

procedures           for      processing                  and     enter]no            data         into       the      automated

systems        and    the        lack         of     internal           controls            and     automated              computer

checks       have     contributed               to      this     problem.



Although        the        time         period          considered             was          from    1973        to     1980,       95

percent       of     all    payments               were    made     by     the        Black        Lung       ProGram        during

1979     and       1980.           While           we     had     planned             to      support          our         computer

analysis        through            an    examJnation              of     case         files,        the       aoency        delayed

nearly       two     months         in    orantlng             access      to       the      case    files.           Given       the

seriousness           of    the         problems          disclosed            by     our     computer          analysis          and




                                                                - 15 -
the       need         for         prompt              corrective                  action,              we        decided           to        issue             our

report         based              on       the         analysis             of         the      automated                 systems             data.              We

have       completed                   a     review         of       some         case         file          materials              (limited               to     a

sample         of       medical                payments               as      a    result              of     resource              constraints).

The       results            of        that       review          will            be    reported               in      the       next         semiannual

report.              Preliminary                       results             indicate,               however,               that          our     analysis

of     the        automated                   systems             may        have            substantially                      understated                 the

actua]        level           of        resource             loss.




Recommendations                         in       our      reports             outline                 specific             steps         to     be     taken

to    alleviate               current              problems                and     to        avoid          future           problems.



-      Inadeouate                 Attention                to     the        Identification                         and      Prevention               of

       Loss

Our       studies            found            a     lack         of        priority             given             to      the      identification

of     current           ]asses               and       the       prevention                  of       future          losses            on     the        part

of     Black         Lung          Program              management.                     For        example,               until         recently,                no

budget            or         planning                    document                 had          evidence                   of       any          speclfie

commitment               of        resources                to       any          objective                 not      directly             related                to

increasing              the        speed           of processing                       claims           and       issuing           payments.



We     are     aware              of       the         demands             placed            upon           the      program            by      the        1977

amendments              to        the         Act.         However,               many         of      the        deficiencies                  that        led

to     the          loss           discussed                above             could            have           been           easily           prevented




                                                                            - 16         -
without           the       commitment                    of      extensive                   resources              and           without              the         use

of     sophisticated                    technical                 expertise.



For      example,               shortly             after             the         initiation             of        the         OIG         studies,                 the

proaram           implemented                   a    new         computer                check          in     the           automated                  payment

systems           that           has        eliminated                       approximate]y                     $50,000                   per         month               in

duplicate             benefit             payments.                      This         procedure               required                   only          12        lines

of      comDuter            program             ]anouaoe.                        Unfortunately,                    the         effectiveness                         of

this       check          was         diminished                 by        the        fact       that        the         listing                of      deleted

payments             was         not        forwarded                      to        claims        processors,                           who         may          have

reissued             some        of     these            payments                manually.



A      further            indication                 of         the          lack        of      attention                    to         controls                 over

payments             is     that          some           of     the          same       problems              identified                        in     the          two

OIG        studies              were        reported                  in         a     1979       study            by         the         Secretary                  of

Labor's           Management                    Improvement                       Committee.                  There            was          no         evidence

of      actions            to         correct             those             deficiencies                 at        the         time             of      the         OIG

work.




Finally,             it      must         be        noted             that           although           many            of         the      states                with

large        concentrations                         of         Black            Lung         benefit           recipients                       have          state

proarams             compensatlno                    Jndlvidua]s                       for      black          luna,               only         300         out          of

the        7a,O00            monthly                benefit                     recipients               had            offsets                  for          state

compensation                    reflected                in      their            records.              Also,            at        the         time         of      our

studies,                  the           program                  was              not          a_oressively                          pursuin0                       the




                                                                                - 17     -
identification                      and         assignment              of     responsibility                     for            payment           of

claims        by responsible                         mine     operators.



Several          recommendations                             relatino           to         this          lack         of          manaoement

commitment                 to        the          identification                and            prevention               of            loss        are

contained              in           the         studies,            includ_no               the          establishment                       of         a

permanent             loss       control              unit       reportino           to    the      Director               of     OWCP.



-      Computer            System            Deficiencies

In     our      view,           a     major           contributing              factor            to      most        of        the     payment

system        vulnerabilities                         and     resultant            loss        is      the     lack        of         a unified

computer              system                incorporatino                    sufficient                  edit,         control,                   and

security         procedures                     to    ensure        the      integrity              of     program              data        and    an

accurate         accountino                     of       payments.           The     Black          Lung        automated               systems

operating             at     the          time       of    our     studies         were        virtually              independent                  of

each         other,             with              only        lim/ted           on-line                  capability                   for         the

verificatJ.on                and          reconcil/ation                of    data        amono          the     systems,               and       had

only       limited,                 and         easily        by-passed,                data        inteority                   and     payment

control         procedures.



Our       studies            found           that         both      the      cla/m         process/no                 procedures                  and

the     automated               systems              were     incapable            of     properly             responding                   to    the

massive         increase                   in     workload           enoendered                by      the       1977           amendments.

The       program            failed              to       recognize           the         maonitude              of        the         problems




                                                                     - 18 -
created      by        these    deficiencies             for    at    least a           year    or     more        and

failed       to        act     effectively              to     correct          them     once        they     were

recognized.



We    have     recommended             a    large-scale             redesign       of     the     Black        Lung

Program's         computer       systems.           In addition,            the    problems          identified

in     our     studies          warrant          immediate           interim       action         to     correct

existing       system deficiencies.



These     include            changes       to    allow        periodic      reconciliation              of     data

entry,       data       modification,            and automated             record        creation        aoainst

authorized          levels;          collect_on          of     additional         data        sufficient           to

provide           an      adeouate              audit        trail         of      all         computer-based

transactions;            implementation            of spec]fically               described        data checks

designed           to        eliminate            the        most      serious            payment            system

deficiencies;            and     a    comprehensive             evaluation         of     the     security          of

all Black Lung automated                    systems and data.



-     Inadequate         Internal Controls
The     lack      of     effective         internal          controls       in medical            and    benefit

payment       operations         has       caused       major       vulnerabilities             in     the    Black

Lung Program.                Financia]          control       and accountino            mechanisms           are    so

deficient         that       we are convinced                it is impossible             for the        program

to    determine          the     actual         amount        paid    to    any        claimant       without        a

review       of        the     microfilm           copy        of    checks        maintained            by        the

Department          of the Treasury.




                                                        " 19 -
These      problems            become        particularly               acute       in      the     area        of    medical

payments.             One      claimant,          having        made     a    decimal         error        in      computing

his     travel          expenses           (reimbursable           under        the      prooram          legislation),

submitted           a     bill       for     $i79.00           instead        of      $12.90.            Not       only      did

program         staff          not      identify          the     orioinaI            error,         but        they        also

proceeded        to      issue       a check        for    over     $13,000.



Even     the     most          basic        financial          controls,           accountino             for        returned

checks,         are       so      deficient          that        the     prooram            did      not        know        that

approximately               $30,000          in    returned        checks          had      been        stolen        between

its    mail     room        and      payments       section.            Files       contained            copies        of    the

returned        checks;           and       logs,    with        entries        made        on    the     basis        of    the

photocopies,              reflected          the     returns.            Even       after         being     notified             of

the     theft       by      the      OIG    four     months        aoo,       the      proqram          has      still       not

_nitiated           the      cancellation             procedures              reouired            for     the        Treasury

Department          to      recover        the     funds.



Numerous         recommendations                  were     made        for    corrective             action          in     this

area.         For        example,           we    proposed         that         re-validation                 of      payment

records        be       initiated           as    soon      as    possible            and     be     continued              on    a

periodic        basis;         a complete           evaluation           of     the      Black      Lung        accountino

system     be       undertaken;              l_sts        of     individuals             approved          for        various

payment         processing              functions          be     developed;              uniform          criteria              be

established              for      determinino            acceptable           treatment             costs;           security




                                                           - 20     -
    safeguards               be       insta]led;              and            fiscal            controls               he     implemented                 to

    insure         accurate,                comprehensive                        payment           and         recovery             records           for

    each      individual                  account         and         for         timely           reporting                and     analysis             of

    program           fund          transactions.                     Also,              a    number            of      improved               payment

    screenino              and       verification                 and            claim         maintenance                  procedures               were

    recommended.



    -     Recent           ESA Corrective                 Action

    We       would           like          to       acknow]edoe                       recent             actions              taken            by     ESA

    management              to      address         a number                of    the        problems            noted        above.



    First,         the           Deputy           Under          Secretary                   has         established                  within          his

    office           the         Internal            Control                 Unit            (ICU)         for         the         purposes              of

    coordinating                    and     monitorino                  agency               efforts             to         prevent            losses,

    improvino              internal              controls             and          assuring              the         implementation                   and

    consideration                   of     OIG      and     GAO recommendations.                                      The     ICU      is      already

    examining              OIG-referred               complaint                   cases        and       followino-up                  on      several

    OIG       reports.                   Second,          the          agency                has       proposed               a       substantial

    commitment               of      resources              to    address                 these          problems             in      its       Fiscal

    Year      1983          budget.               Third,          the            agency            has      issued            a     reouest           for

    proposals              for      a     comprehensive                     claims           tracking            and         payment           service

    contract.                Implementation                      of         the          reouirements                  specified               in     the

    contract          should              result      in     substantial                       improvements                  in     many        of    the

    identified              problem             areas.




d



                                                                            - 21 -
These    are    positive          indications             of     the      willingness            of    the     agency's

top     management          to    move       aggressively               to     correct           these       problems.

However,        we    believe        that          contJnuino           attention           is        needed     within

OWCP and the          Black       Lung   Program           if     these       major      deficiencies            are      to

be overcome.



-     Leaislative          Problems

In addition           to    the     systemic          problems            discussed          earlier,          the     OIG

has     been    concerned           about         various         statutory           provisions              that     may

have    caused       Black        Lune   prooram           loss        throuoh        improper           payments        or

that,    through       eligibility                provisions,           may     have      caused         payments         to

be     made     when        proof       of        black         lung      could       not        be    definitively

established.           The Administration                     has recently            proposed           a number        of

changes        to     the        Black        Lung        Benefits            Act     that         would        improve

operation       of the           program          from    a      fraud,       waste,        and       abuse     control

perspective.               Several           of     the         more         sionificant              problems         are

discussed       below.



--      E]JQihility          ReQuirements

The     ]977    amendments          made          a number         of     chanoes         in the         evidentiary

and     elioibility              reouirements             for      Black          Lung      benefits.                These

included            chanoes         to        various              special            provisions,                called

"presumptions,"             that     allowed          surrogate              criteria,           e.g.,       number      of

years      of        coal        mine        employment                (coupled          with          evidence          of
i




                                                         - 22 -
respiratory          impairment),            to     be        used         for     benefit          eligibility,

instead      of     direct       proof       of    black           lung.           The       effect       of     these

presumptions         has     been      that       miners       and          survivors         of     miners       have

received        benefits        without       establlshino                  absolute          proof       of     black

lung.



The      Administration             has       proposed             eliminating                three        of      the

presumptions:             (1) the presumption                 that a miner               with       ten years       of

coal     mine      employment,         who        died        as       a    result       of     a       respiratory

condition,         died    as    a result          of     black            lung;       (2)    the       presumption

that    a miner       with      15 years          of coal          mine         employment          and    a totaly

disabling         lung    impairment         is totaly             disabled            due    to     black       ]ung;

and    (3) the       presumption          of e]igibi]ity                   of survivors         of miners          who

worked      25 years       in the coal mines prior to 3une 30, ]971, and who

died before         March 1, 1978.



--      Prohibited        Re-Readino         of X-Rays

Current      law     prohibits         the        Department               of    Labor        from       re-read,no

X-rays       to     determine       whether          black             lung       is     present          when     the

following         conditions     exist:

        -    There       is other      evidence          that          a miner         has     a pulmonary          or

             respiratory        impairment;

        -    there is no evidence                 of fraud; and

        -    the     X-ray       was      taken          by        a       radiologist             or     oualified

             technician,        is readable,             and was read by a board-certlfied

             or board-elioib]e             radlolo_ist.




                                                    - 23 -
The     most     expedient           way       to    identify              an     erroneous          reading          of    an

X-ray     is     to        re-read     that         X-ray.           The        Administration's                  proposal

would eliminate              the current prohibition                        against re-reading                    X-rays.



--      Use of Affidavits                  for Eligibility                 Purposes

Under     the     present           law,     affidavits             attesting            coal       mine       employment

and     symptoms           of black        lung     disability              from widows              and    others         who

have s financial               interest         in the claim are sufficient                                to establish

claim       eligibility.               This          increases              the         potential           for       claim

determinations              based    on falsified               evidence.



The Administration               bill proposes              that, when there is no medical                                  or

other     relevant            evidence,             these        affidavits              not        be     accepted         as

sufficient          proof      that the           miner     was       totaly            disabled         due      to black

lung.          These        affidavits              would         have          to      be      substantiated               by

affidavits          from      others        with        no direct             financial          interest            in    the

disposition          of the claim.



--      Potential           Double-Billing

Since       inadeouate              coordination                 exists            to        preclude          duplicate

payments,         there       now     exists         the        possibility              that       both       the    Black

Lung     and    Wedtcare         systems          can      be     hilled          for    medical         payments          for

Black    Lung claimants.




                                                         - 24 -
 The     Administration               bill        proposes         that       the     initial          responsibility

 for     medical           payments         for      black        lung     payments           be    transferred               to

 _edicare.            This       would     reduce         possible       overpayments              in this        area.



 In     addition             to     these         provisions,              we        believe           that       stronger

statutory            provisions           are     needed         to    ensure        that    offsets          with         other

 benefit        programs            are     made.          Our     studies          found        that       offsets          for

 state        Black     Lung       compensation             payments          were        reflected         Jn    only       300

 out     of     74,000        monthly        benefit            payment        records;          and,       also,          noted

 that     this        is     a    ouestionably             low        f_gure.         With       the     exception            of

 Part     B benefits,              administered             by    SSA,     this       is     the    only         offset       to

 Department           of    Labor     payments            permitted        by the         Act.



 Another        situation            that       we    find       particularly               troublesome               is    that

 former        miners,           disabled         from      coal       mine      employment             and      receiving

black         lung     benefits,            may      be     employed           in    other,        less        strenuous,

 occupations               with      no      offsets             for      earninos           applied             to        their

benefits.               For        example,           some         ex-mJners              currently              serve        as

 full-time            MSHA        mine      inspectors.                While         we     support           efforts         to

 occupationally                  rehabilitate             and     employ        disabled           miners,         we       feel

 that     for        periods         of     time      during           which        ex-mJners           are      gainfully

 employed,            offsets        for     earnings            should        be     applied          to     black         lung

 benefits.




                                                            - 25 -
In     addition           to        these            legislative                 issues,           we     are         troubled          by

Section        725.542             of    the         Black        Lung      reoulations             that        states       that       no

recovery          of     an        overpayment                will         be     made       in     any       case        where        the

recipient          is     without             fault        and       recovery          would        defeat         the      purposes

of     the     B]ack           Lung       Reform              Act      or       "be        against           eauity        and      good

conscience."




Program        staff         have        _nterpreted                this        provision          to    mean      that      the.      Act

prohibits          recovery              of      overpayments                   resulting           from        administrative

error        when         the           recovery              would          impose           a      "hardship"              on        the

recipient.              We     do    not       believe            that      the     program         is       reouirJng           enough

evidence          to         support             a     hardship             claim.            We        believe           that         the

standards          set        forth         in       the      Federal            Claims       and       Collection               Act    of

1965    provide           a     more          concrete             basis        for    making           such     decisions             and

urge     that      these        standards                be    rigorously              applied           and     that      complete

documentation                 of        hardship             be      obtained              prior        to      any      waiver         of

government             recovery          rights.




                                                                   - 25     -
EMPLOYMENT           AND       TRAINING          ADMINISTRATION

The     Employment              and      Training         Administration                 (ETA)        budget        authority

for     employment               and       training          programs              for     Fiscal        Year       1981       was

$28.8        billion,            including            the     Unemployment                Insurance           Trust        Fund.

The     Unemployment                   Insurance            Trust         Fund       was        budgeted           for     $18.8

billion         and        the       Comprehensive                Employment             and      Training           programs

were     budgeted              for       $7.6      billion.              The       remaining            funds       were       for

other         ETA      activities,                such        as        federal          unemployment               insurance

proorams        and        programs         for    older          Americans.



CETA     Grants        to State            and    Local       Prime          Sponsors

The     largest           of     the       employment             and    training          programs           administered

by     ETA     are        those       authorized             by    the        Comprehensive              Employment            and

Training            Act     of       1973        (CETA)       and        subseouent             amendments           to     that

Act.         CETA     grants          to   state       and    local          prime       sponsors        in    Fiscal       Year

1981     amounted              to     approximately                $5.9       billion.            ETA     estimates            the

Fiscal        Year     1982         expenditures            at     about       $3.3      billion.



The     oeneral           purposes         of    the     programs            funded       by    these     grants         are    to

provide        work         trainino            and    work        experience              to    the     disadvantaged,

unemployed,                and        under-employed.                        The     1973        Act,         as     amended,

provides        that        these          programs         be     funded          by    direct        grants       to     prime

sponsors            (now       478),       which       consist          of     state       and     local        governments

w_th     populations                of     i00,000          persons          or    more,        who     are     responsible

for    tailorino            the      proorams         to meet           local      needs.




                                                              - 27       -
For     the        past          several             years,          we    have        conducted             more        audits         and

investigations                    of     CETA         prime         .sponsors          than        of       any     other           single

program           in    the        Department.                 During           this       reporting             period,        we     have

continued              our        intensive               audit          and        investlgative                 coveraoe.             The

following              is    a description                    of    some       of    the    problem          areas           identified

by     OIG    activity             and         our     recommendations                  for       corrective              action.            A

detailed           presentation                      of       audit        data        is        contained              in     the      OIG

Activities              Section.



-     Resolution              of       Audit     Findings

In     past         semiannuml                  reports             we         described          the        problem            of      the

increase           in        the       number          of      unresolved              audits.              As     of        Warch      31,

1981,        the       backlog          of     unresolved                audits       over       six       months       old     was     794

reports           containing               unresolved                audit          exceptions              of     $303        m]lllon.

Some     of        these          reports             had      gone        unresolved             for        as     long       as     nine

years.            ETA        accounted               for      about        97       "percent          of    the      Department's

open    audit           findings.



In     January               1980,         a     grant             and     audit        closeout             task            force      was

established                 to    close         out        grants          and      contracts,              to     collect           debts

owed         to        the        Department                  of     Labor,           and        to        provide           technica!

assistance              to       grantees            and      contractors.                  In    July       1981,           this     task

force        combined             efforts            with      an     adjunct          task       force,          and    nearly         all

resources          were          redirected               solely          to    eliminate             the    unresolved              audit




                                                                    - 28        -
backlog.            As     of        September             30,        1981,      the   Department's       backlog       had

been         eliminated,                with         the             exception         of    e_ght     reports,         the

resolutlon           of     which           was     precluded              elther      by   active    investlaatlons

or   by      ongoing        resolution               activity              at    the   subgrantee      levels.         This

is   illustrated                in    the      followlno              chart.




                                                                 -     29 -
In    addition         to    resolving           the     audit         reports       issued     prior       to    March

31,    1981,     51    new    audit        reports          issued         during     the    current       six    month

period        were     resolved,           bringino            the     total        amount     reso]ved          durino

this     reporting          period        to    $301     million           (836     reports).         Of    the       $301

million        resolved,           grant        officers           have      disallowed         $103.8        million

(34    percent).             This     amount           has     now      entered        the     debt     collection

process.




Illustrative           of     the     magnitude              of    this      accompl_shment,               our    audit
resolution           campaiqn        has       resulted           in   a    seven-fold        increase           in    the

rate     of    audit     resolutions             --     $301      million         resolved     _n    the    past       six

months        ($50    million       per        month)       compared         with    $164     million       resolved

in    the     preceedino        two    years          ($7    million         per    month).         This    is    shown

in    the     follow_ng       table.            More     detailed           statistics         are     provided         in

the    Appendix.



                                      Audit       Resolution            Activity

                                           (dollars          in    millions)




                 Six    Month       Reportino
                       Period       Endino                                  Dollars     Resolved

                 September          30,    1979                                      $ 15.0

                 March       31,    1980                                               26.6

                 September          30,    1980                                        56.6

                 March      31,     1981                                               66.9

                 September          30,    1981                                       301.0




                                                         - 30 -
This         major         financial                management               accompl_shment                   has      been         achieved

as      a       result          of     the     strono             commitment              to    audit         resolution               by      ETA

management.                     ETA,        working          closely             with     OIG,       reallocated               priorities

to provide               sufficient                 staff         resources             for    the     project.



Efforts            taken         by     the         Department              to     resolve           the      audit           back]oo          and

to      install             an       effective                   permanent             system         for         audit        resolution

include:

            -           Procedures                 to      resolve           differences               between            auditors             and

                        prooram             managers              that      arise         durino            the     development                ann

                        resolution             of        audit      reports,

            -           automated             systems             to       record        and     track        the       resolution                  of

                        audit            disa].]owances                      through             collection                    or           final

                        disposition,

            -           trainino             for         grant      officers             and     their            technical           support

                        staffs         in     audit         resolution,                 and

            -           inclusion             of         audit      resolution                reouirements              in     the      Senior

                        Executive                  Service             performance                standards                   of      program

                        managers.



-     Debt         Collection

ETA         has      taken           several              steps        to        improve         debt         collection               in      the

agency,            including                 establishino                   an     accounts            receivable                  system           to

track           debts       to       final          resolution              and        incorporating                 debt      collection

as      an        SES     standard                 for      prooram          managers.                 In     addition,              ETA       h_s




                                                                       -    31     -
developed              a plan           of     action,           in           accordance                  with          OMB Bulletin                 81-17,

that       includes               basic         goals           and           milestones                   for       improvements                    in     the

area       of     debt           collection.                    A        training               program                  on     debt         collection

has      been          developed               for         prime              sponsors,                   so      that         they         can      better

resolve           problems               in        this      area             with           their             subgrantees.                      Prior        to

Fiscal          Year      1981,               ETA     had       col]ected                     $6.2         million              in     debts         in     the

entire           eioht           year          history              of         the            CETA         proQram.                    By       contrast,

during           the          first           nine         months               of           Fisoa]              Year          198]         alone,          ETA

collected              $8.1       million.




-      Ineffective                Monitorin9                of Grantees                       and         Subgrentees

Recipients               of           CETA         grants           (prime                   sponsors)               award             suborants              to

approximately                     40,000             subgrantees                     or        program               service                deliverers.

Effective              management                  principles                  and           CETA         regulations                  reouire             that

management               systems              be     _nsta]led                 at        both         the        prime          sponsor            and      the

Suborantee               levels                to         assess              proorams,                    identify                  the        need        for

corrective               actions,               remedy           Door              grant             performance,                     and       plan        for

more            effective                    Droorams.                    In             the          past,                OIG          audits              and

_nvestigetions                         have          shown          that                 less-than-effective                                 monitoring

systems            have               resulted             in       the              failure               to        detect                or      correct
                                                                                           \
w#de-ranaina                      deficiencies                      at             the          subgrantee                       level.                   These

deficiencies                  include           violations                    of      cost           limitations,                     inaccurate              or

incomplete                accountino                        records,                     participation                           of          ineligible

persons,           and           inadequate                 documentation                            of        financial                and        program

activities.                     Prime          sponsors                  are          responsible                        for         resolving              any




                                                                          -    32        -
Questioned                 costs          resulting                  from        audits        of         subgrantees                    and      are

liable              to     ETA          for          unallowable                  subgrantee                costs.                Activities

related             to      subgrantee                 operations                 accounted               for        31      percent            ($17

million)             of    ouestioned                 costs          resulting          from        all         CETA        prime          sponsor

audits              conducted                 during            this             reporting                period.                   Effective

monitoring                systems             would        have         precluded            many          of        the      deficiencies

that       resulted           in        ouestioned             costs.




The      CETA        amendments                of      1978,         and    implementing                   regulations,                    reauire

that           Independen           t         Monitoring                 Units          be      established                         by         prime

sponsors.                  Specific                responsibilities                     assloned                to     the        monitoring

units          _nclude:

           -     Review            of     the        systems            controllino             program                administration,

                 particularly                   those         that       determine           participant                    eligibility;

           -     review            of         pay      records             and        attendance                reports            to       ensure

                 that        controls                are      established               for     preventing                    unauthorized

                  payments;

           -     review            of     subgrantee                 plans,           procedures,                and        capability               to

                 carry        out        programs             and      activities;             and

           -     monitoring                   of      subgrantee                 maintenance               of        records             for      ali

                 expenditures                   of     CETA      funds.



Although             CETA        regu]ations                provide          that       the     units            be        operational               by

April          3,        1979,      OIG         audits         have         shown        that        most            were       slow         to    he

staffed,                 which          delayed            or         prevented              effective                     monitoring              of

suborantee                activities.




                                                                       - 33       -
Following         are     specific         examples           of    weaknesses          in implementing           the

monitoring         unit        concept,         as    found    during      our    most     recent     audits.



•      Knoxville/Knox                County Manpower                Consortium,         Tennessee

       Although           this       prime           sponsor       had    established         an     Independent

       Monitoring              Unit,      our audit disclosed                   the following         weaknesses

       in the unit's effectiveness:

       -     Numerous             suborantees                were        not     monitored           during       the

             performance             period of the grant;

       -     findings           disclosed            in monitoring             reports    were not resolved

             by     subgrantees,                and        follow-up       by     the     prime      sponsor       to

             ensure        that corrective                  actions were taken was insufficient;

       -     established             written          procedures          were not always            followed      by

             the monitoring                staff in conducting                  their reviews;         and

       -     reports           depicting             the    results       of monitor_nq             reviews      were

             not    81ways         presented               to a high       enough       level of management

             to    ensure          that         appropriate           corrective          actions      would       be

             taken.



      At     the        time      of      our    audit,        this      prime     sponsor      had     over      $13

      million             in     unresolved                ouestioned          costs     from       prior       audit

      periods,            of which $4 million                  pertained         to suborantees.




                                                            - 34 -
m   Texarkana         Metropolitan                 Area      Manpower           Consortium

    An     Independent               Monitoring            Unit        had      also       been        established              by

    this        prime          sponsor,            with        duties           and        responsibilities                     to

    monitor          all        aspects          of      the      CETA         program              from        information

    generated           by      the        management             information              system           to     at       least

    semiannual             monitoring               of     a]l         subgrants.                   However,           an      OIG

    audit        disclosed            that        most       of    the         staff's          time        was        used     to

    gather            eligibi].ity                    data              on        potential                      _ne]ioih].e

    participants.                    The     monitoring                staff       did          not        even        have      a

    comp]ete         listing          of    suborantees.




Q   Madison         County       Employment              and      Training        Administration_                      Indiana

    Our      audit         of        this        prime         sponsor           disclosed                 that,        as      of

    September          30,       1980,       its      Independent              Monitoring              Unit       was       still

    in    the       formative          stage.            Therefore,             monitoring                 of    individual

    programs            was       not         being          conducted                on        a      timely           basis.

    Financial              records               maintained               by      three               out         of        seven

    suborantees                selected            for         audit           were        in         an        unauditable

    condition.                 Because        these          three        suborantees                 were        unab]e        to

    provide         supporting              documentation                 for     costs             charged        to       their

    program,         or      were      unable         to     reconcile           reported             expenditures              to

    official         accounting             records,           $65,000          was    ouestioned.



    At     the       time        of        our     audit,          $112,000              Jn         ouestJoned              costs

    resulting           from      subgrantee               audits         remained            unresolved.                   These




                                                         - 35      -
         ouestioned              costs        were         for     audits           cover/no           periods           between

         September             1974    and     September           1978.



         The     prime          sponsor,           in      accordance              with        our     recommendations,

        has         taken         steps            to       increase               its         monitoring               efforts.

         Approximately                     $44,000         of      the        total            $112,000            suborantee

        ouestioned               costs            was      resolved            during            the         time        between

         issuance          of    our        draft       audit      report          and     issuance           of    the     final

        report.



-     Inadeauate           Financial           Manaoement           and       Internal           Controls          at    the

      Prime     Sponsor          and       Suborantee            Levels

OIG      audits           have         noted         problems            in        financial            manaoement             and

internal         controls             at     both         prime     sponsor              and     subgrantee              levels.

Our    recent           review     of       cash     management             practices           _n     the    CETA       program

disclosed           a    number        of     cash      management            deficiencies,                  including         the

fact     that       CETA       recipients            have       failed        to    provide           effective          control

over      CETA          cash      balances.                We     also        found            that     the        system       of

interna]         controls             at    the     prime         sponsor          and     suborantee              levels      was

inadeouate.                We         found          controls               that         permitted            payment           of

expenditures               unsupported               by     documentation;                  administrative                  costs

charged        to       grants     that        exceeded           the       amounts        authorized              by    statute

or     regulation;              expenditures               that     exceeded              budget        authorizations;

charges        that        did    not        conform         to     government             cost        principles;             and

improper         eouipment,                procurement            and       control        procedures.                  Further,




                                                             - 36       -
inadeouate        controls            have       rendered             the        CETA       program        more

susceptible       to fraud,          waste      and    abuse.             Deficiencies          in financial

management        and     internal           controls            at       the     prime         sponsor     and

suhgrantee       levels        resulted         in     amounts            ouestioned        totaling        $35
million.



To    address      these        problems,            ETA     initiated             corrective         actions

including:        redefinition             of    the        roles         and     responsibilities              of

Federal     Representatives,                 with      emphasis             on     monitoring         grantee

internal     control          systems;       issuance        of       a certification              guide    for

review      of     prime        sponsors'             Financial             Management           Information

Systems,     including          specifications              for       a    payroll       journa]      system;

inclusion     in the Annual            Performance           Assessment            of reouirements          for

maintenance       of     documentary            evidence           of      participant           eligibility

verification;           and    development            for        issuance         in     late     1981     of    a

certification           guide        for     review         of     prime          sponsor        control        of

subgrantee       cash balances.



Following        are     examples          of       audit         findings         relating         to     poor

financial    management          systems        and poor systems                  of internal       control,

as found during our most recent audits of CETA prime sponsors.



--     Poor Grantee Cash Management                     Practices

For   several      years        we    have      been       pointing          to    the     need     for    more

effective        cash     management            practices             within       the     CETA     program.




                                                    - 37 -
During        Fiscal         Year      1979,          the       DOL        provided           $9.4       b_llion            in      federal

funds        to     over       500        recipients               to        finance          employment              and        training

programs.                 Another         $_    billion              was      provided             Jn     Fiscal           Year         ]980.

Cash        advances          were         made        to       these         recipients                to     fund        their            CETA

activities.




Our        recently         completed             review           of      cash      management               practices                in    the

CETA        program         disclosed           that         CETA       recipients              have         failed         to    provide

effective            control           over          CETA         cash        balances.                  Federa]           efforts            to

control           advances           to      recipients                 have        been        similarly              ineffective.

Because            this      control            was         lackino,               recipients                often         had         either

excessive           cash      balances               or     insufficient                 cash      to        meet      their           needs.

These        problems          are      the       result           of      ineffective               recipient              accounting

systems            that        did        not         provide                CETA        cash           managers             with            the

information                necessary            to        maintain            minimum          cash          balances,            federal

payment            procedures              that           did        not          prevent          the         accumulation                   of

excessive             cash         balances,                and         control             practices               that         did         not

identify           inadeouate             recipient             cash         management.



As     a    result,          the     Federal               Government               incurred            additional               interest

costs         when         more        funds          were           borrowed               than         necessary               to         meet

immediate            needs;            local          governments                   were        deprived               of        interest

earnings            when        local           funds             were        reouired              to        meet          CETA            cash

disbursements;                and      CETA          suffered            loss       of      ouhlic        support           when        funds

were         not      available                 to        meet          participant                 payrolls               and          other

reouirements.




                                                                        38    -
    In     addition,               recipients                     have          allowed             subrecipients                          to       retain

    unexpended             government                 funds         for        extended             periods               of     time       after         the

    contract             period.               Recipients                    have           also           derived               interest                from

    federal         funds          but         have         not        returned              the          interest               earned            to     the

    Department,             as reouired.



    Our       auditors             examined                 the        cash         management                    practices                 of          seven

    recipients             in      four         regions                who       collectively                    received                  54     percent

    ($6       bi]Iion)             of       all         CETA           funding              in          Fiscal             Year         1979.             OIG

    recommendations                  to        the       Assistant                Secretary                    for    ETA           for     improving

    cash      management             in the            CETA        program          were           as      follows:

               -   Perform           an        assessment                  of      recipient                   accountino                  systems           to

                   identify              deficiencies                   in cash             management                practices.

               -   Provide               necessary                     technical                   assistance                    to         establish

                   adeguate              controls             over        CETA balances.

               -   Consult              with          the         U.S.           Treasury                to      explore                alternative

                   methods           for        disbursing                   federal           funds            to        reduce           the      oeriod

                   between           reauest             and       receipt             of      funds            as        well        as    eliminate

                   the      uncertainty                  as       to      when         funds            will         be     received.                   (This

                   would           almost             certainly                reouire              a      method              other            than      the

                   mail       system            for       reouesting                and        mailing               funds.             Eliminating

                   use      of     the      mail         system            for      disbursing                   checks,               alone,           would

,                  reduce          interest              costs            to     the     U.S.           Treasury               by      $8.8       million

                   per      year.)

I
i
         -    Notify          recipients                of     their        obligation                 to    ensure        that     all

              government               funds        unused           at    the     completion                of    a contract        be

              promptly             returned              by     subrecipients,                    or     reproerammed              into

              current             activities.

         -    Develop             incentives             and        training            to    make          financial,           budget

              and        program            managers            more        aware         of       the       cash        manaoement

              implications                  of    their        decisions.

         -    Direct          a    review          of    all        recipients               at    the       local       government

              level,              to    ensure               that         procedures                are           in     place      for

              identifying                 and       returning               interest              earninos             accruing      on

              CETA        balances            to       the    U.S.        Treasury.               Added       emphas_s           should

              be        placed         on     monitoring               recipient               compliance               with      these

              procedures.



ETA     concurred              with         all         our      recommendations                       and        cited        actions

planned        to       correct         the       deficiencies                  found.            They       stated,       however,

that     they       do     not         have        the        staff       to      assess           recipient             accounting

systems           and    to       review          recipients               to     recover              interest          earned      on

CETA     balances.                 Instead,             ETA         suooested            a    number          of        alternative

approaches,             includino            hav_no           the    OIG        perform        the       assessments.



While        we     agree          that          ETA     does         not        have     the          skilled           accounting

personnel           to        adeouately                address             these         problems,                we     feel      the

potential           savings            are         so        significant             that          the        recommendations

should        be        implemented                as        soon      as        feasible.                  The        shortage      of




                                                                - 40        -
skilled          accountfno             personnel           could          he        addressed           through          use     of

technical           assistance                trainino           funds           to      procure          the        necessary

expertise           or     throuoh            the        formation              of     an     OIG/ETA           task       force,

drawing         upon     the   technical             expertise             available           within         the    OIG.




•         Maricopa        County I Arlzons

          The     financial          reports             submitted          by        this    prime       sponsor          to    ETA

          disclosed        material               discrepancies.                  Reported          expenditures                were

          overstated           by       $560,000          due    to        an    undetected              clerlcal          error,

          and     there       was       an    unreconciled               difference               of    $116,000          in     the

          cash      account.                 In     total,        we        ouestloned                 $1.1     miIllon           in

          program        expenditures.



          These        problems              existed        because              of      the       Iack        of      adeouate

          accounting           procedures                and     controls.                  The     accounting             system

          consisted           of    poorly          maintained             and         unlahe]ed          manual          records

          that      were       constantly                revised           durino           the     audit.           No     clear

          audit     trail          existed          between       the       financial             reports           and    source

          documents.




•         Municipality             of    Cargllna         , Puerto          Rico

          Our     audit        of        this        grantee           disclosed               that       its        flnanclal

          management           system          was       inadeouate              to     properly          administer             the

          CETA     program.             The       prime     sponsor             exceeded          its     $971,000          Title

          IID    appropriation                 by     $56,000          and       made        wage       overpayments              of




                                                               - 41    -
        $452,000           to        its     staff         and        participants.                    These        overpayments

        were        due         to     the        lax         preparation                 of     time         and        attendance

        records            and        the        absence              of    formal             leave      records.                Other

        financial               management                 weaknesses                included            a      lack         of           an

        established               system          for      documenting               or    verifying            travel           costs,

        an     unclear           delineation                of        authority            and    responsibility                    that

        resulted           in        many       routine          payments           being         delayed           and     in      some

        unusual            payments               receiving                little           or      no        scrutiny,              and

        unsupportable                      payments.                   Recommendations                    were            made            to

        strengthen              the       grantee's           financial             management           system.



--      Improper           Eouipment             Procurement                and     Control        Procedures

OIG     investigations                      have          identified               significant                probiems              with

respect        to    CETA         prime          sponsor          eouipment               control        and        procurement.

These       include:

        -     Procurement                  of      major          eouipment                (over        $i0,000)            without

              specific           justification                   or     approval          by     the    grant           officer;

        -     use     of        "lease          with      option           to     buy"     contracts           to        avoid     sole

              source        and       procurement                authorization                 reouirements;

        -     rental        of       government-furnished                           eouipment            to    CETA        programs

              to    generate           income           for      other          uses;

        -     furnishing               major            eouipment                items         ($10,000             &     over)           to

              private            businesses                for          "classroom               training"               where       the

              eouipment              is     used        for      a     limited           period        and     then        retained

              by the        contractor;                 and

        -     failure           to maintain               property              records.




                                                                 - 42 -
 These         problems              appear          to        stem         from      ETA's          inadeouate                  efforts              to

 enforce         prime         sponsor             adherence               to   federal         regulations                    and        to    take

 substantive                action          where             violations             are      noted.               Annual           p]ans        and

grant          proposals                  contain]no                unidentified                   budgetary                  amounts            for

eouipment              acouisition                 are        approved          at     the     beginning                 of     each        fiscal

year,          thus         providing               the         funding          authorization                     to         procure           such

 eouipment.                    Attempts              to          obtain          property               listings                 for           prime

 sponsors             reveal         that          ETA        normally          does         not     have          such         information

or      that     the          information                _s     not       current.            Without          accurate                  property

 records,             re-utilization                     or     recoupment             of     eouipment                 by      the       Federal

 Government             is not            possible.




 -      Ineligible             Participants

 As     noted          in      our        last       three          semiannual               reports,              one         of     the       most

 prevalent              problems              in         the       CETA         orooram            is     the            enrollment                   of

 ineligible                 participants.                         During             this       reoortino                     period,            $20

mi11_on          was          ouestioned                 in     OIG        audits       due        to    possible                   ine]ioible

 participants.



 In     many     instances,                  ineligible               participants                 may        be    enrolled               in        the

 CETA     program              because             of     an       error        by     the      intake             staff            or     by        the

 participants.                    In       many      other          instances,               however,              their            enro]lment

 may     be    due       to     willful             fraud.            Such       CETA        fraud       is        the        subject           of     a

 significant                port,on           of     OIO         investigative                effort.               As        noted        in    our




                                                                      -     _3 -
last         semiannuaI              report               to        the        Congress,            CETA        employees               are

sometimes            coached              to        falsify              their        enroIiment           appiicatlons                  to

ouaiify        for        a    CETA        position.                     In     one        recent       case,        a     subgrantee

director           coached            appIicants                    to        falsify         their       addresses               to     be

eIigible           for        the    CETA           program              and        also     paid       participants              for     a

forty-hour            work-week                when           they        actuaily           worked        thirty-two              hours

per     week.            On     the        basis           of        this          investigation,               ETA       disallowed

$48,333        and        instructed                the        prime          sponsor         to     recover             these     funds

from     the    subgrantee.



The     CETA       amendments              of       1978       provided              for    elloibi]ity          determination

and     verification                 systems               to       be        placed         at     ail    prime            sDonsors.

Under        the     1978       reQuirements,                       a     full       and      complete          app]icatlon              is

the     basis        for       estabiishina                     participant                 eliglbiIity              in     the        CETA

program,             Within           30        days           of        enroiIment,              ali     appiicatlons                  are

reviewed        by    someone             other        than          the       intake        officer       for       compieteness

and     consistency                 and        to     verify             that         the     determJnatlon                regardlno

eliglbility           was       correct.                  A    ouarterly              verification              of       participant

eIigibillty           is performed,                   based             on    a random         sample      of    participants.



In     our     last           semiannuaI              report,                 we     reported           that      the        OIG        had

completed          its        evaIuation             of        the       CETA       eligibility           determination                 and

verification              systems          of       selected                 CETA     prime       sponsors        and       that        the

draft     report          had       been        submitted                 to       ETA     management           for       review        and

comment.            The       objective              of       our        study        was     to    identify              aspects        of




                                                                    - 44-
prime    sponsors'        eligibility           determination          and verification                systems

that could        be used       as a model            by other prime           sponsors         to improve

their     participant           screening         process.            Although       we     identified        a

number of practices               tending to characterize                 effective          sponsors       and

to distinguish            them      from        their    less     effective          counterparts,           we

also    found     that     those        characteristics          did    not     lie in the area              of

specific        screening       applications            or    technioues,           but     in manaoement

support,      direction,        and staff competence                  and diligence.



Our     study     recommended            that     ETA:       DeveloD         training       programs        and

guides       that    prime         sponsors        could        use     to     train        their        staff;

encourage        less     effective        prime       sponsors       to reoulre          Dre-enrollment

documentation             until         they      strengthen           those        areas         of      their

enrollment          and        verification             systems        identified            as        needing

improvement;            and       determine           which      prime         sponsors           have      not

implemented         their         @uarterly           Verification            System         and       recover

administrative           funds allocated           to them to implement                   the system.



While    ETA offlclaIs            agreed       that some prime sponsors                   are in need of

better       tra_nlng      programs,           staff     guides,       policies,          and   procedures

in     the      screening         area,        they      felt     that,        in     some      instances,

implementation            of      our     recommendations              would        reoutre        too     much

natlonal      intervention          at the local level.




                                                      - 45 -
-     CETA/Pub]ic         Service          Employment         Unemployment          Insurance        Refunds

CETA     statutes         have        always       provided           for    participation           of    Public

Service       Employment              (PSE)       workers       in     the    Unemployment            Insurance

(UI) prooram.              The       Emergency          Jobs    Proorams          Extension         Act of      1976

(P.L. 94-444)            transferred              the    liability          for UI benefits           from CETA

grant     funds      to        the       Special        Unemployment         Assistance         Fund       in    the

budoet    of the State               Employment          Security      Agencies         (SESA's).



The     Act   reouired           the      Federal         Government         to    pay    directly         any    UI

benefits       to    individuals             whose       claims       were    based      on employment            in

the CETA/PSE         program.              The states          were directed            to make      refunds      to

or to credit             the    accounts          of employers          who had made contributions

to      the     Unemployment                 Insurance           prooram           on     behalf          of     PSE

participants.             ETA        issued       specific      instructions             to prime      sponsors

stating       that these             credits      and refunds          to PSE       emp]oyers         should      be

recaptured          by    the        prime    sponsors          for    use    in subseouent            CETA/PSE

proqrams.



The     OIG    conducted             a    survey         to    determine          if,    in    the    State       of

California,          these           employer       refunds       were        returned         to    the       prime

sponsors       as instructed.                 Out of $2.26 million                  that      California         had

refunded       to    employers,              we    reviewed       $1.9        million         and    determined

that of this amount                   only $949,000            had been properly              returned.          Our

survey    has already                resulted      in the recovery                of $367,000.            The OIG




                                                         - 46 -
recommended           that      ETA take       immediate          steps    to    recover       the        remaining

$587,000.



Office Of National                  Programs

The    Office         of      National        Programs        (ONP)       Js    responsible           for      those

proqrams           funded       from        CETA     appropriations              administered              directly

from ETA headauarters                      in Washington.            These include            employment           and

trainina           programs          for     Indians       and     other        Native        Americans,           for

migrant        and         seasonal          farmworkers,            and        for     older         Americans.

Oblloations           for these         Droorams          totaled    $600 million             in Fiscal           Year

198]     and       are        expected       to     total        approximately           $494        million          in

Fiscal Year 1982.



During    the       final months of the past admlnlstration,                                  a large number

of    teleorams          were       sent     to     contractors           and    grantees,           authorizing

them     to    incur          costs    before        actual       awards        were    finalized.             These

awards        were         made       from         CETA     Title         III     discretionary                funds

administered             by    ONP     and    from        Title    IV     funds       administered           by the

Office        of    Youth       Programs.            Further,        although          actual        obligatlons

never     exceeded            available        funds,        as of        January       30,    1981,        planned

commitments           for      Titles        III and       IV discretionary              funds       did     exceed

available          funds       by     $7.3    million        for    Title        III and       $35.4        million

for Title          IV.        The ONP proorem             staff became          aware of the potential

overcommitment               at the end of January                  1981 and action             was        taken to

reduce        T_tle      III and           IV proposed        and    executed          awards        by     $25    and




                                                       - 47 -
$42       million           respectively,                         bringing            planned             Fiscal            Year         1981

expenditures               in         line      with        the        Department's                budget          authority.              In

early           March            of          1981,          the         OIG          initiated                a         still-ongoinq

tnvestioatton               of        some      of     these        award         activities.



At      the    reouest           of      the        Senate         Labor      and       Human          Resources             Committee,

GAO      issued         two           reports          Jn      Auoust         1981        dealino            with         problems         in

ONP:           "Labor       Needs              to     Better            Select,          Monitor             and        Evaluate          Its

Employment              and           Trainino             Awardees"              and       "Information                   on      Funding

Commltments               From         Comprehensive                   Employment               and     Training            Act     Titles

llI      and    IV Durino               Fiscal         Year        1981."



GAO      noted       in    these             studies         that       ONP       relied          heavily          on     sole      source

awards         with       oeneraIly                 little        or     no    justification                  for        such      awards.

Other         observations                   made     by     GAO       include          the       followino.                ONP     rarely

made           formal           assessments                  of         the         awardees'                performance                 and,

therefore,            did        not         know    whether            awardees          fulfilled               the     award         terms

or       spent          federa]                funds         prudently.                   Problems                with          awardees'

performance                were          not         always            identified                or      resolved;               reouired

fiscal         and      performance                  reports           were       often          not    reouesfed,               and     many

awardees            were        never          visited.              Awardees            that          had    performed             poorly

continued            to receive                orant        funds.




Many       of       ONP's         problems              occurred              because             orant           and      contracting

responsibilities                              were                not             separated                       from             program




                                                                    - 48      -
responslbilitles.                       As a result,            most        award       activities               were       handled

by     program           staff       who        placed     little           emphasis              on     following              proper

grant       and    contracting              practices.



ETA     reduced          funds          that     will     be     avallable              in    Fiscal           Year        1982    for

non-formula,              noncompetitive                 _lwards       from       $79    million,              or     13    percent

of    the        total        $600      mil]lon         available            in    Fiscal              Year     1981,        to    $42

mi11ion,           or     9    percent           of     the     total         $494        million             available            for

Fiscal       Year        1982.          ETA     will     also     carefully              examine          the       posslbillty

of    awarding           a    substantial              share      of       the     $42       milllon            competitively

rather       than        noncompetjtively.                      Moreover,           ETA       has        drafted           pollcies

and     guldelines                 to      improve         its        manaoement                  of,     and         to        assign

responslbllities                    for,       the     procurement            process             for     use       of     National

Office,           3obs         Corps           and      certain            Reoional            Offlce            administered

funds.            These        policies              provide,         in      part,           that        awards           be     made

competitively                 to     the       greatest         extent        possible,                 that        sole        source

awards       be        made        only     if       justified         and        approved,              that       performance

assessments              be    made       of     all    procurements               over       the        preceedino              three

years        and        be     considered               before         making            decisions               to        approve,

increase,          or     decrease             the     funding        or    period           of    performance               of    any

contract          or     grant,         and      that     pre-award           audlt          reviews           or     surveys       be

made        of     prospective                  awardees         of        over         $250,000              who        have      not

received          contracts             with     ETA    in the        preceedlng              three       years.



The      policies                  also         provide          that:             Personnel                  with          program

responsibility                 for        the        contract      or       grant            may        serve       neither         as
contract       or grant        officers,        nor constitute        a majority       or serve as

chairperson        on     a    panel     that      rates   applications       for      contract       or

grant    awards;      preaward         authorization         letters must be in accordance

with    the    Federal        Procurement        Regulations'        reouirements        for      letter

contracts        to       protect         the      Government's        interests;         pre-award

authorization         telegrams          are    prohibited;     and a system          be developed

to review       and     track       contractor      and    grantee     financial       and     program

reports       and performance.             Fina]ly,    the draft policies             provide      that

ETA      administrators               shall      consult      with     the      OIG      concerning

contractors           and       grantees         before      recommending        any         funding,

refunding,       or increase           in the amount of a contract            or grant.



The OIO and ETA are deve]oping                     a process    to better       synchronize          the

timing    of audits           and     contract     grant     decisions.       ETA plans        not    to

fund     any    grants         with      serious     adverse      audit      findings        or    debt

delinouency.          A       preaward     orantee     clearance       process        will     provide

information        to       ETA     to    ensure      that     this    policy       is    enforced.




                                                  - 50 -
    MINE      SAFETY             AND HEALTH              ADMINISTRATION

    The       Federal               Mine          Safety                and         Health              Act         of         1977          transferred

    authority              for         enforcement                 of     health             and         safety           standards                 from      the

    U.S.      Department                  of      the      Interior                  to      the        U.S.        Department                 of         Labor.

    The       1977          Act          also           included               enforcement                     of         standards                 for       the

    metallic               and           nonmetallic                     mining               industry,                   as         well            as       the

    previously              regulated               coal           mining            industry.                     Within         the        Department,

    the      Mine         Safety           and      Health               Administration                        (MSHA)             administers                 and

    enforces              the       provisions                of        the        Federal             Mine        Safety            and      Health          Act

    of     1977.




    The       objective                   of       MSHA        is             to          achieve              a        safe         and        healthful

    environment                   in       the          nation's                   mines.               This            involves              conducting

    investigations                     and       inspections                   of         metal,          nonmetal,               and        coal         mS.nes;

    assessing               civil              monetary             penalties                    for       violations                   of      the          Act;

    certifying               eouipment                  and        materials                 for         use        in         mines;         examining,

    approving,                and         monitoring                    industry                  plans            to         ensure          compliance

    under          the      MSHA          Act;          promulgating                       standards                for         mine       safety;            and

    developino               programs               and        materials                    to         train            mine       inspection                 and

    technical              support             personnel.



    The      1977          Act         reouires            8     complete                  inspection                    of     each         underaround
i
    mine      at         least         four       times        a year               and       a     complete               inspection                of      each

    surface          mine           at    least          twice           _ year.                  In     addition               to      these        regular

    inspections,                    the        1977        Act          renuires              perJodic                   spot        inspections                in

    those           mines              where            excessive                   ouantities                     of          methane              gas       _re
released;           where        other          gas     ignitions             or     explosions               have     occurred

durino        the        previous              five     years,           resulting               in     death         or        other

serious       injury;           or where         other        hazardous            conditions            are       present.



The       mining     industry,            subject           to   the        1977     Act,       includes           nearly        half

a     million        miners           working          in     over          21,000     mines.                The     number        of

persons           employed        in      these       mines         ranges         from         one     person       operators

to corporate              entities         employino             over       2,000     people.



MSHA        was     budgeted              at     $154        million           for      Fiscal           Year         1981        and

employed          a workforce             of approximately                   3,800     people.



The       following          is       a    description                 of     some         of     the        problem            areas

identified           by    OIG     activity             and      our     recommendations                     for    corrective

action.




-     Weaknesses           in   the       Approval          and     Certification                of     Mine       Safety

      Products

We     recent]y            completed             an      audit          that         focused            on     the        product

approval           and    ouality          assurance             monitoring            systems           used        by    MSHA's

Approval           and     Certification                Center          (ACC).         The        ACC        mission        is     to

ensure       that        products          used        in     the      mines         are        safe.         To     carry        out

this        mission,            ACC        personnel              test        and       evaluate               products            to

determine           if     they        meet       safety          specifications                  prescribed               by     the

Secretary           of    Labor.           If    the     product            meets      the       specifications,                  the




                                                                 - 52 -
manufacturer            is   allowed       to    display          an    MSHA     approval          plate    that

indlcmtes         the product         is safe for mine use and can be marketed                                 to

mine     operators.            The     Center,            which        has     85      permanent          staff,

receives          approximately        5,500         reouests          for    product     certifications

annually      and has received             over 22,500 reouests                  since 1978.



A 1980       OIG       investigation        of ACC         operations          raised     concerns          about

possible          preferential        treatment           being        oiven     to    manufacturers           in

the     product          approval      process,            and     about        MSHA's        inability        to

identify          and    remove     unsafe       products          from       the     mines.        For     these

reasons,          we    reviewed      the       product          approval       process        and     ouality

assurance         monitoring        systems      operated          by ACC personnel.                 Our audit

found       that       the   Center    cannot         effectively             carry     out    its     mission

under       the    current        concept       of    federal          evaluation        and       testino     of

prototype         mine eoulpment.



Our     review          of    the     current         operatJno              systems     identified            the

following:

        -    As a result            of the high volume                 of applications             and limited

             staff        resources,        there         are    large        continuing           backloos     of

             unprocessed            applications           for     product          approval         that     will

             not be eliminated              under the current operating                       concept.

        -    No        patterns       of     preferential                treatment        in        processino

             approval         actions       were       detected.              However,        we    understand

             ....
              how someone           unfamiliar, with               ACC       o'perating systems             could




                                                      -    53 -
    suspect       preferential                treatment,         since the ACC has at                  least

    i5 major        scheduling               iines       for    processing          approval         actions

    that    resuIt       in different                time       frames       for product         aoproval

    actions.

-   A     review        of        58    products          being         evaluated         by     the       ACC

    indicated            that            97         percent            had        incomplete              file

    documentation.

-   There     are       weaknesses             in     management             systems      for    track,no

    the    progress           of       applications.             For        example,      in    22    of    58

    files         reviewed,              we      could           not        ascertain          when        the

    application          had been assigned                     for testing and evaluation.

-   There     is    a        strong          service       attitude          on    the    part       of    ACC

    personnel        that          sometimes          results          in    a    failure       to    reject

    Jnadeouate           or        incomplete            applications              for    approval          of

    products.                In        one      case,           ACC         personnel          completely

    re-designed          two pump             units       for a manufacturer                  because      the

    original       design did not meet safety specifications.

-   The     ACC    is    ineffective                in    monitoring             previously-approved

    MSHA products             to ensure          that they continue                  to meet         federal

    safety        reouirements.                  Of       the     88        products          reevaluated

    during        Fiscal          Year       1981,       23     (26    percent)          of    them       were

    found    to be unsafe                for mine use, indicating                      the need for a

    stronger       monitoring            and reevaluation                   function.




                                                - 54 -
Based   on our findings,               we have recommended                procedural     improvements

to    expedite          processino          and    provide         more     effective        manaoement

control      in ACC's current operating                    environment.



However,       the       lack    of    an     a:deouate ouaiity             assurance        monitoring

prooram       raises      serious       ouestions         about     whether       products     carrying

the MSHA       approval         continue      I:o meet      federal        specifications       and are

safe for mine use.               These problems            are compounded          by inconsistent,

outdated,         and    unclear       MSHA       regulations       that     govern     the    approval

process.           The     fee        schedules,           which     are      published         in     the

regulations,            do not    come      close       to recoverino        the    cost of product

testing.          The result       of the         low    fees has     been    to shift        the costs

for   product        approval         and   ouality        assurance       from    manufacturers        to

the taxpayer.



While       additional      staffing         for ACC would          reduce     backloos       and    allow

for increased            quality      assurance          reviews,    such staff        increases       are

unlikely       and      would    provide       only      a short-term         solution    because       of

anticipated          increases        in applications.               Therefore,        we believe       it

is appropriate            to consider          alternatives          to the       existing     approval

and certification           concept.           We have recommended             that the       Assistant

Secretary         for Mine Safety and Health                  implement       alternatives          to the

current operating           concept that would allow:

        -    Manufacturers            to use      third party,        independent        laboratories

             to    evaluate        and      test        products     in     accordance        with    MSHA

             specifications;           and



                                                        - 55 -
         -   MSHA        to     accept        manufacturers'                     testlno         and     certification

             that     certaln           types        of        less-hazardous              mining           products       and

             accessories              meet    federal           specifications.



Furthermore,          coupled          with        the     shift       in        the    operating           concept,       the

govern]no         federal        reoulations              need        to    be     streamlined,             updated,       and

clarifled.



We believe         implementation              of     our       recommendations                 will:

         -   Provide           greater        flexlbillty               to       manufacturers              and    MSHA     in

             desionino           and     approving              safe       mine        equipment        and       eliminate

             long    delays           for    approval;           and

         -   better       utilize            ACC     technJcal             expertise            to    Derform       quality

             assessment              reviews         and         identify              hazardous         products          and

             s_tuations.




In    response       to        our     report,           MSHA     officials              stated        that       they     are

already       taking            action          to        implement                changes.             They        further

indicated         that        many     issues        raised           by    the        report        paralleled          their

own     concerns,             agreed        that         the     current               approval         concept          needs

modification,            and         stated        that        they        are     committed           to     making       the

necessary         changes.             However,           MSHA        management            did       point       out     that

the     current      operating              concept        was        beoun        in     the     early       1900's       and

rspld    change      may       be     difficult.




                                                               - 56    -
-   Enforcement

During       this         reporting            period,             there             were         15            MSHA-related

indictments.              Some      of        our     major            investigations                      of         the        MSHA

enforcement         program        ere     discussed            below.



•     On June        8,     1979,        an explosion             at        the     Belle        Isle         Salt        Mine       in

      Franklin,            Louisiana,           resulted           in        the     death           of       five        miners.

      Under        the     1977     Act,       MSHA        is    reouired            to      classify                a    mine       as

      aassy        when      certain          conditions                are        met,      _ncludlno                   when       the

      test        sample      contains          .25        percent           or     more        of        flammable              gas.

      Investigations                have      borne        out     the        allegation                  that,          prior       to

      theexplosion,                 MSHA      personnel            were           aware      of      the        presence             of

      methane        in     the     Belle       Isle        Salt        Mine        and     other          salt          mines       in

      the     area         since        readings           at     these            mines         exceeded                 the       .25

      percent        limit.



      On    May     27,     1981,       an    MSHA        sub-district               manager            was      indicted            by

      a      federal          grand           jury         in      Lafayette,                   Loulsiana,                     on         a

      three-count            indictment              of    conspiracy               to      obstruct             proceedings

      related        to      the     Bel]e          Isle        Salt        Mine         investioations.                         This

      sub-district             manaoer,             who    had     orior            knowledge              that          the     m$ne

      was     gassy,         did     not       or,oper]y           disclose               this        information                   nor

      properly           enforce        the    MSHA        Act.            During         the     Jnvestigat!on,_                    it

      was     revealed            that       the      sub-distrlct                  manager               had        Previously

      instructed            his     employees              not    to        classify            the        salt          mines       as




                                                           - 57        -
Oassy.         It      was    aIso     disclosed           that       he       heid    a meeting              in    1976

w_th      the        representatives                of        the      southern             Louisiana               salt

mines,       in     which      he     notified           the        representatives                   that       one    of

the     salt      mines      that     should        be     classified             as    oassy              wouid       not

be so     classlfled.




The      sub-dlstrlct                manager            piead        guilty           to        conspiracy              to

defraud        the      oovernment           of    its     right          to    have       the        Mine       Safety

and     Heaith         Act    administered              falrly        and       free       from        corruption.

Sentencing           is pending.



On     May      2V,       1981,        the        U.S.        Attorney            filed          a      four-count

crlmlnal          Inform_tlon           charoJng              Cargill,           Inc.,          the     owner          and

operator          of     the    Belle         Isle        Salt        Mine,       with           violatino             the

mandatory           health        9nd       safety         standards              established                 by       the

Federal        Mine     Safety        and    Health           Act    oC     1977.          On    May       ?9,     19_1,

Caroill           entered         a     oullty            plea         and        the           U.S.         Attorney

recommended            that     Caroil]           pay     a       $100,000        fine.           On       September

I,     1981,        Carol11,          Inc.        was     fined           $45,000          by        the      Federal

District        Judge        in Opelousas,              Louisiana.



In    addition,          the   survlvors            of    the        mine       disaster          sued        Cargiil

Inc.,    who      settled       out     of    court        for      $8 million.




                                                   - 58       -
•   On      October            28,          1980,           three           men       were         killed              in      an         explosion

    while          working            in        an    illegal               underground                   coal         mine          in        Corbin,

    Kentucky.                 Althouah                    the      OIG       does          not        aeneral]y                    investiaate

    mine          safety              and         health            violations,                     the          U.S.           Attorney                 in

    Lexington,                Kentucky,                   reouested              that        the       OIG        provide                 technical

    assistance.                    The        OZG assisted                    the       U.S.         Attorney                 by     conducting

    _nterviews,                  preparing                  subpoenas                and         affidavits                  and          compiling

    the         documentary                 and      physical               evidence.



    As      a    result          of        this       investipation,                       on      June          5,     1981,             a    federal

    grand          jury       in        London,                 Kentucky,             indicted                six           individuals                  on

    forty-four                 counts                for         violating                 safety             standards                       and     for

    operating               an        illegal              mine.             Trial          is      scheduled                   to        begin          in

    November              1981.



•   On          June        22,            1981,            a      former             MSHA           coal             m]ne           inspection

    supervisor                was           convicted                  in        Roanoke,             Virginia.                       This           coal

    mine         inspector                 had       owned          and       operated               the         same          mine           that       he

    had         the       responsibility                         for     inspecting.                       He         was      charoed               with

    violatino              conflict                  of     interest              laws       and       with            submitting                   false

    statements.




•   The         OIG    also        conducted                    an_,investigatJon                      into            allegations                   that

    a       former             MSHA               mine            inspector                  solicited                       and              received

    interest-free                          loans            with            no        repayment                   terms              from            coal




                                                                       - 59       -
         companies          in       the       Richlands,            VirglnJa,            coal       belt.           On   July     ]5,

         1981,       the    former             mine     inspector           was        charged          with     three         counts

         of       extortion,          two       counts         of    receiving               illegal           gratuities          and

         two       counts        of       fi]ino            false     statements.                   The        president           and

         vice-president                   of     the       mlnino         company            were       also     charged          with

         giving       illegal          oratuities.                  This       case      is    awaiting          trial.



•        The       OIG     conducted             an        investigation                into       allegations             that     an

         MSHA       district          manager           obstructed             investloatJon                   and    inspection

         activities             of    subordinate                  inspectors            in       his    district.               There

         were        additional                  allegations                that             the        district           manager

         accepted          gifts          and     gratuities              from         the    coal       companies.               MSHA

         proposed           removal              of         this      employee                but        he      subseouent].y

         retired.               On        July         6,      19_I,           a        federal           grand           Jury      in

         LouisvJl]e,                 Kentucky,               returned              a     seven-count                  JndJctment

         against          the        distr_ct              manaoer.             The      indictment              charged           the

         manager          with        six       counts         of     obstruction                  of     Justice         and      one

         count       of    accepting             a bribe.            A trial            is     scheduled             to   heoln     in

         November          ]98].




MSHA     manoement           is       aware           of     all     of     these            JnvestJoatJons               and      the

recommendations                 we     have       made        as     a     result            of     our       work.         We     are

concerned           that,        in       the     past,        _SHA        has         not     heen       as    sensJtlve           to

Jnteority           issues           as     it        should        be.          A      particularly                 troublesome

example,           concerns            an       MSHA         employee,               previously                suspended           for

taking        a    gratuity,          who       was        subseouently              assigned           by     MSHA       to   teach

an   ethics        course        at a district                office.

                                                                - 60       -
DEPARTMENTAL         MANAGEMENT

Within       Departmental         Manaoement,             the    OIG directed        audit     activities

to     the    procurement           area.           The     Department        undertakes         numerous

procurement          actions      each     year      that       total     about   $400      mi11ion.      Of

particu]ar        interest          to     us       durino        this     reporting         period     were

year-end      spending       and consultant               service contracts.



-     Year-end    Spending

We     evaluated           the     adeouacy          of         controls      implemented         by     the

Department       in Fiscal          Year    1980      to        eliminate     unnecessary        year-end

spending       and    to    find    out     if      funds       oblioated      related       to services

reouired      on]y during that fiscal year.



We found that manaeement                  controls         needed        improvement       and that $1.3

million was improperly                  oblioated         to Fiscal Year 1980.



In    response       to     our    findings         and     recommendations,           the     Department

promptly      took     a numher          of actions.             The agencies        reviewed         by the

OIG    were    immediately          told       to    adjust       their     accounting        records     by

deobligating          the    $1.3       million       improperly           charged     to    Fiscal     Year

1980 appropriations               and to charge            those obligations           to Fiscal Year

1981.        In order       to avoid        the      improper          obligation      of    Fiscal     Year

1981     funds,       procuremeht           personnel            were     charoed      with     reviewing

existing L contracts              and    new     procurement             reauests     to     assure     that

only    [he appropriate             _&ar's funds                were    oblioated.          Add]tionally,




                                                      - 61 -
the      Department         provided        immediate          verbal       guidance        on    future

procurement         actions      to agency administrative                 personnel,       and    is now

revising       internal       directives        to provide           permanent     guidance       on the

proper manner         for obligating            funds.



Based     on   our    recommendation,            the     Department        will    ensure     that      the

existing       reouirement        of preparing          annual       advance      procurement      plans

is enforced.          Such      plans     lay the       groundwork         for fulfil]ino         agency

procurement         needs    and enable         agencies       to p]an       for the best         use    of

their     budgeted         funds.      Additionally,           the    Department's        Procurement

Review       Board     will      review         and     approve        these      plans     and    their

amendments,          thus       enabling        the      Department         to     initiate       needed

corrective         action early        in the fiscal year.



In light of the results                 of our review of Fiscal                  Year 1980 year-end

spending,       we examined           procurement       actions       for the last two days              of

Fiscal      Year     1981.       The    preliminary           results     of     this    audit    effort

indicate       significant            improvement        in    the     Department's         obligating

procedures.          We     believe      these        improvements        can     be    attributed      to

the Department's            timely      response       to correct        the deficiencies          cited

in our earlier         review.



-     Consultant      Service       Contracts

We evaluated         the     Department's         manaoement          controls     over    consultant

service        contracts         to     find      out     if     contracts         were     correctly




                                                      - $2 -
classified              as      consultant          services            and     if     contracts           were      properly

reported           to      the      Federal       Procurement                 Data     System           (FPDS),     which         is

the      oovernment-wide                      data          base         used          to      monitor            government

purchasing              for       the     information             of     the    Congress           and      the     Executive

Branch.



The    specific              prob]ems        we   identified              were       the     misclassification                and

misreportJng                 of     consultant          service           contracts               to     the     FPDS      and     a

resultant             inaccurate            reporting              of     the        money        obligated         for      such

services--Departmental                        accounting                 figures        differed               significantly

from        those          reported          to       the        FPDS     and        also      differed            with      data

presented             to     the    Congress.            For       example,           for    the        first     six     months

of     Fiscal           Year       3981,      one       of       the     Department's                  major     procurement

offices           had        classified           nine           contracts            for     consultant             services

valued        at      $805,053.             We    identified              an     additional              three      contracts

va]ued       at       $484,958.             As    a    result,           the     Department's                  reportino      was

undervalued                by   almost      40 percent.



Based        on       our         recommendations,                 Departmental               officials            have      been

directed           to      take      specific          actions           to    improve         the       classifying             and

ouantifying                of     consultant          service           contracts           and    to     report     accurate

figures          to     the       FPDS.     Additionally,                 the    Department               is    implementing

a     new        reouirement               that       will         preclude            the        processing            of       any

consultant              purchases          that       are    not        included        in    approved           procurement

plans       or    approved           amendments             to    such    plans.




                                                                  - 63     -
ORGANIZED            CRIME        AND       LABOR     RACKETEERING

An     historic                problem        in     the       labor/management                field       has     been     the

influence            of    organized            crime.



An      assessment                of     the         organized           crime         and     labor        racketeering

problem        in     the        United        States,         conducted         by    our     Office       of    Organized

Crime     and        Racketeering                  (OOCR)       and     other     law        enforcement          agencies,

found         that              over         400       labor          organizations                 are       associated,

influenced,               or     controlled           by    organized         crime.



Investigations                   of    organized           crime      and     labor      racketeering             cases,     by

their     very        nature,            are        lengthy       and    comolex.             In   Fiscal        Year     1981,

investigations                   conducted            by     OIG      special          agents,        including           those

conducted            jointly            with        special        aaents       from     other        law    enforcement

agencies,            resulted            in    43     indictments             against        93     individuals,           many

of    whom    are         top     level       members        of    organized           crime       families.



Four     major            areas        of     criminal          activity         in      which       organized          crime

members        are        involved            and    that      have      received        concentrated             attention

from     OIG     special               agents        are:         embezzlement,              extortion,           kickbacks

(to       employee                 benefit             plan         officials            to         influence           their

administration                   of    such     plans),         and     illegal        payments           from    employers

to union        officials.




                                                                  - 64    -
-      Embezzlement

Unlon-negotlated                       emDloyee             benefit             plan      funds        and        labor              union        funds

wlth        their          billions              of        dollars           are         vulnerable                to           embezzlement,

especlally               when         oroanlzed            crime          is involved.



This       type       of        criminal              conduct             usually           involves              the            very        willino

participation                    of         dishonest          union             officials,                 as        in         the       case        of

Daniel        Cunningham,                    president              of     the      Allied           International                        Union        of

Security           Guards             and      Speclal          Police            (Allied)            and         the           Federation             of

Special            Pollce              and        Law        Enforcement                  Officers.                        In        a    50-count

indictment               returned              against          Cunnlngham                and        two     business                    agents        of

the       union,           Cunn_ngham               was       charged,              in        August         1981               in       New     York,

with       embezzling                 approximately                  $160,937             from       union            and        benefit           fund

coffers           over      a     flve-year                period          by     forgino            union         and           fund        checks.

Wlth       business              agent         Herman          Jaffe,            Cunningham                was        also             charged         in

the       Jndlctment              with         embezzling                 $4],814          by     converting                     Allied           union

checks        made         out         to     fictitious                 employees             and     an        add_tional                  $35,000

by      cash_na            fictitious                   employee               checks           with         the            assistance                 of

business            aaent             Frank        Ponte.                The      total          amount               the            three       union

offlclsls           are      charged             with        embezzling                 was     approxlmately                        $239,800.



-      Extortlon:                Interference                 with         Commerce             by    Threats               or       Violence

Extortion             is         defined            in       the          Hobbs           Act        as      "the               obtaining              of

property           from         another           with       his         consent,             induced            by     wrongful               use     of

actual        or     threatened                  force,         violence,                or      fear,           or        under          color        of

offlclal           right."                  Employers           who        want         their        cargoes               unloaded              or    to



                                                                          - 65      -
keep     their        businesses               open        too     freouently                are       forced        to       bow    to

extortionate               demands.              Althouoh              the         problem             is      perhaps           more

prevalent           in     the        construction            industry,             no       bus_ness          is     immune         as

shown          by        an       intensive                two-year--and                     still            onooing--joint

investigation               by    OIG,        the     New     York       Police          Department,               and     the      IRS

of    the    fresh         seafood          industry         centering             in    the         Fulton     Fish       Market,

which       generates             approximately               25       percent          of     all         seafood        business

on    the    Atlantic            Coast.




The     investigation                  revealed            that        the     industry                is     influenced             by

oroan_zed           crime        members         and    their          associates.                    Their        infiltration

is     reflected            in        all     aspects         of       market           activity,             including             its

major        union--the                United          Seafood            Workers              and          Handlers           Union

(affiliated           with        the       United     Commercial             Workers            Union)        in New         York.



In    Auoust        1981,        a     federal        orand        jury       in    the        Southern            District          of

New     York     returned             an     167-count           indictment              against            three     officials

of     local        359,      United          Seafood         Workers           Union,               and     its     associated

welfare        and    pension           plans        and     five       businesspersons                     associated           with

Various        wholesale              fish    companies           in    the    Fulton            Fish       Market.



The    'indicted            union           officials            include           Carmine            Romano,         executive

administratGr              of     the        Ful{on     Fish       Market          welfare            and     pension          funds

anU    _formeriy           {he        secretary-treasurer                    and        busine:ss           agent
                                                                                                             _           of    local

359.        According            to    various         law       enforcement             _gencies,             Romano          is    an

alleged        high-level              organized        crime          figure.



                                                                 - 66 -
Also        indicted                 were          Romano's                 brother,              Peter              Romano,

secretary-treasurer                  and     business            agent       of     local       359,         and     Anthony

O'Connor,         cousin        of     the       Romanos'         and       trustee        of     the        welfare        and

pension     fund        and   a former            business        agent       of    the     local.



The     defendants            are      charge_'           with        conducting            and        conspiring            to

conduct     the     affalrs          of     the    Fulton        Fish       Market        through           a pattern        of

racketeering            activity            that     included              numerous        acts         of       extortion,

payment     and     receipt          of     illegB1        labor          payoff,     misuse           of    the     union's

welfare     and     pension           funds,        and     obstruction              of    Justice.               The     union

officials        are     charged,           in     part,       with        extorting        over        $644,000           from

businesses         in     the       market         through        the       Fulton         Patrol           Service;        the

payments       were       made       in     return        for     "protection"              agalnst              thefts     and

robberies.              Two     union         and        five        employer         defendants                   are     also

charged     in     70    counts        with       extorting           "Christmas"            payments              averaging

$300    apiece      from      employers            in the       market.



-     Kickbacks

To     influence         operation            of     emp]oyee              benefit        plans,         kickbacks           --

usuallv     monetary          --      are    given        in    payment.             The    large           sums     of    some

kickback          schemes,             such         as         that         uncovered             in         a      two-year

investigation            by     OIG,      FBI,      and        IRS    of     the     Laborers           International

Union     of     North        AmerlcB,            o_ve     us        an    idea      of     how     much           orgaoized

crime     gains     at    the       expense        of    union        members        enrolled           in       health     and

welfare     and     pension.programs.




                                                           r     67 -
    In     June     lqal,            16    defendants--inc]udino                         Anthony         Accardo,        alleged

    Chicago        syndicate              boss;        Santo        Trafficante,              8]]eged      Tampa       organized

    crime     boss;           and    Angelo           Fosco       of     Chicago,       president          of    the    Laborers

    International                  Union         of     North           America        (LIUNA)--were             indicted         on

    charges        of     racketeering                  vio]ations             through        a    pattern      of     insurance

    kickback        schemes.                In       September,            five       other       defendants--includlng

    Raymond         L.        S.     Patriarca,                  al]eged        organized             crime     boss      in     New

    England,             and         Arthur             E.        Cola,         Sr.,      secretary-treasurer                     of

    LIUNA--were           also        indicted              on charges          of    racketeering.



    The     indictments              state           that    the       scheme,        which       operated      from     i970     to

    ]977,     was        to    get        money        for        the     defendants          and      co-conspirators            by

    setting        up    or     purchasina              insurance              companies,          exercising          influence

    over     unions            and        trust        funds         to     funnel       insurance            business          from

    those     funds           into        the        insurance           companies,           charging         union     members

    for      the        most         expensive                form        of     insurance,             and      lootinq         the

    insurance            premiums           paid         by       using        them     for       kickbacks,           pay-offs,

    unearned        salaries               and        fees,       and      improper       personal            expenses.          The

    union     insurance               business              was     funneled           into       a   nationwide         company

    that     Joseph           Hauser,            a    convicted            insurance           swindler         who    became      a

    government            witness,              was         to    arrange.             Hauser's         company         received

    over     $39    million               from        various          employee        benefit         plans     and     over     $3

    million        was    allegedly              kicked          back.




\
The grand             jury also charged                   in the          indictment           that,         during           1976,

Pstrlarca             advised          Hauser            that       the      insurance              business             of     the

Laborers          Un_on       would         be controlled             by      "the family"                with         Patrlarea

controlIing                  the          northeastern                United              States,                Trafficante

contro11in9             the        southern            United       States,         and      Accardo             controllfng

the     midwestern            United         States.



-     Illeoal Payments

Illegal          payments          are payments             or loans of money or other thinos                                      of

value       by        employers,             or        individuals          acting          in      the          interest          of

employers,             to         union        representatives                    or      labor           organizations,

usually          in    return          for        favors,        such      as     influencing               contracts              or

union operations.



A       recent         convlctJon                 in     Delaware,            followlng               a      lenothy            OIG

investlqation,                establlshed                that      Eugene         R.      Boffa,          Sr.,         with     the

participation                of      other         co-defendants,               masterminded                a     nationwide

network          of    labor         leasinq            companies          that         speclalized               in     leaslno

truck      drivers           to    major       corporations               throuahout          the     country.                These

companies             operated              under         various           names,          includin9                  Universml

Coordinators,                Inc.,        Country          Wide      Personnel,             Inc.,          and         Preferred

Personnel,            Inc.         They      employed           several       "front"        people          who posed             as

officers         of    various         of     these       companies.




                                                                - 69 -
The       defendants                  would             interchanoe                         the      companies                     as      necessary                     to

circumvent                contractual                       employee                 wage         and      benefit                reouirements,                          or

other          problems               as        they             arose,          by         terminating                    contracts                   with          one

leasing          company              and         bringing                 in        another              leasing            company                 that         paid

lower          wages            and         benefits.                      Boffa             and          his        co-conspirators                              were

always          careful               to        conceal              his         actual             ownership                 of         the         successor

companies,                and     thus           defrauded                 a large                number          of       employees.



Evidence             at     the         trial           established                     that             Francis            Sheeran,                 president

of      Teamsters               Local           325         in     Wilmington,                     was      an       active             participant                      in

this       operation                  for         which             he      received                 several                luxury              automobiles

and       an     undetermined                         amount               of        Boffa's              profits.                      Trial          evidence

showed         that         alleged               high-level                    organized                 crime            figures              also         shared

Jn     the     profits.



Boffa          was        convicted                    in         June          ]9£]          on         charges              of         operating                   the

]_easing          corporations                          through                  a      pattern                 of         racketeering,                          maJ]

fraud,          and        illegal               payments.                      He     was         sentenced                 in         August             198]          to

20 years          imprisonment.



The       Sheeran                trial,                which               began             October                 13,           198],             is          st_]]

underway.                  The            other             co-conspirators                              have          been             convicted                    and

sentenced.                  The            judge            ordered              that             nine          companies                 owned             by      the

defendants                be     forfeited                   to     the         government                 and         appointed                 a        receiver

to     prevent            the     dissolution                       of     assets            during             appeals.




                                                                                 -     70     -
While          labor            ]easino           is       not         in       itself       an        undesirable               method        of

conductina             business,                 the        Boffa           case       illustrates                the     vulnerability

to     "sweetheart"                    contract             arrangements--a                      form        of    labor        management

collusion            in         which          the      employer                pays     the      union           representative               to

negotiate            lower              waoe          rates:           or       benefits           than           the     market            would

permit,         to     allow             the      employer               to      use     non-union              labor,          or    to     fail

to enforce             the        collective                baroaining                 agreement.



The    facility             with         which          companies               and      ]ahor         can    be     manipulated              and

the       sophistication                        of     transacting                    seeminely              leeitimate              business

make      this     an       area         of      orowing           concern.



-     Leois].ation

Two    bills         now          under          consideration                     that     greatly               affect        the       method

of     conducting                 investigations                        into          organized             crime         activities           in

the    labor         management                   area           and     the       outcome        of        such        investioations,

and    which         we     support,                 are     S.        1153,       Labor       Racketeering                Act       of     1981,

and       S.      613,             Amendment                 to         the        Hobbs         Act,           developed              by     the

Department            of        Justice.



--     The      Labor           Racketeerino                     Act    of      1981

In     May      1981,            S.      1163,             the         Lahor          Racketeering                Act      of        198]     was

introduced                 to          increase              the         penalties               for         violations                of     the

Taft-Hartley                    Act,       to        prohibit               persons         upon        their           convictions            of

certain          crimes                 from         hold_no                offices         in         or       certain           positions




                                                                            -   71 -
related             to        labor      organizations                    and        employee                  benefit           plans,          and    to

c]arify             certain           responsibilities                        of    the        Department                  of    Labor.



The       act         assigns            responsibility                       to         the         Department                  of      Labor         for

detecting                and      investigating                     civil          and        criminal                  violations               of    the

Employment                    Retirement                Income            Security                  Act            (ERISA)          and        related

federal              laws.              Previously,                  the       Department                        has       interpreted                 its

authority                to     pertain            only         to    civil             violations.                       The      OIG       believes

it      is         necessary             to        have         the       authority                      to        investioate               criminal

violations                as well.




There              has         never          been            any         specific                   leoislation                      giving           the

Secretary,                and     ultimately                 the      IG,      statutory                      authority            in     organized

crime              and         labor          racketeering                     cases                to         investioate                   crimlnal

violations                    contained                in     the           federal                 labor               laws.           The        Labor

Racketeerino                    Act      of        1981       (S.      1153),                could             appropriately                   clarify

the       ro]e           of     the       Labor             Department                  in     the            Department                of     Justice

Organized                Crime        Strike        Force           and       its       authority                  to     investigate.



--       S.    613        -    Hobbs         Act    Amendments

In    March           1981,        S.     613,         a bill         that,             emono            other          purposes,            includes

amendino              Section            1951          (Extortion)                 of        the         United           States         Code,         was

introduced.                     Portions            of       the      b_11          would                nullify           the        decision          in

United             States        v.      Enmons,             410      U.S.          396        (1973).                  The      Supreme           Court

found         in     Enmons           that       the        Hobbs      Act          does           not        apply       to     the      actual        or




                                                                          -    72       -
threatened          use      of      violence            directed                  at      the      obtaining         of

"legitimate         labor         objectives"             or        economic              benefits         that      can

otherwise      by         lawfully         obtained            by        collective              bargainina.           In

addition      to     nullifyino            the        Enmons        decision,              S.     513     would     also

clarify     the     position,           in    the      context           of     both       labor        disputes     and

disputes     outside        the     field        of    labor        relations,             that     the    Hobbs     Act

punishes      the     actual         or      threatened             use       of        force     or     violence      to

obtain     _ property             irrespective                 of         the            leoitimacy          of      the

extortionist's         claim       to     such    property.



This     leoislation         is    important            and,        if    enacted,              would     he]p     deter

labor       racketeering                and       enhance                Departmental                  investiQative

effectiveness.




                                                        - 73        -
                                                            PART     II

                                         SUMMARY        OF    OIG        ACTIVITIES



OFFICE      OF     INVESTIGATIONS

Between       April          1    and     September          30,         1981,       we    opened        270       cases   and

closed      303.        We       referred       52     cases        to    the    Department             of    Justice      and

other       authorities                 for     possible            prosecution:                  Additionally,             83

cases       were       referred           to    DOL      agencies            for          administrative             actions

that     resulted            in     various           actions         including             two        reprimands,         two

demotions,          and      nine       terminations           of        employment.              At    the    end    of   the

reporting          period,         there       were    597     cases        pending.



During      the     six-month            period,        there        were       50    individuals             or    entities

indicted         and    30       convicted        based        on    our     investigations.                    (Since     the

period       of      time         to     obtain         court         action          on      indictments              varies

widely,      the       30    convictions              are    not     necessarily              related          directly     to

the    50   indictments.)




Fines,       recoveries,                savinos         and        collections               resultino             from    our

investigations               during        this   period           totaled       about        $4 million.



The    following            is    a breakdown           of     investigative                case       activity       by   DOL

agency      for     this         period:




                                                            - 74     -
                            SUMMARY  OF INVESTIGATIVE    ACTIVITY
                               April 1 - September    30, 1981

                                               Cases           Cases        Individuals   Individuals
      Agency                                   Opened          Closed        Indicted      Convicted

      Labor       Statistics                      3                  -              -                -

      Employment          Standards             128             115               19                15

      Employment          Training               96             142               16            Ii

      International             Labor             -                  I              -                -
          Affairs

      Labor-Manaoement                            a                  2              -                -
         Services

      Mine Safety          and                    6                  9            15                 4
          Health

      Administration             and              2                  4              -                -
         Manaqement

      Occupational   Safety                      ]1                 18              -                -
          and Health

      Office    of the                            3                  1              -                -
           Secretary

      Solicitor                                   5                  2              -                -

      Other                                       2                  2              -                -

           TOTALS                               270             303               50                30




Examples     of    some    of    our    most     significant             investigations   follow.




                                                      -   75    -
Employment   Standards          Administration

•    An   Office     of    Workers'          Compensation           Programs          bill      payer    in

     Washington,      D.C.,        was       indicted       in     3uly     1981      on     charges     of

     defrauding      OWCP of approximately                  $52,000.         She was previously

     convicted      for    issuing        65     fraudulent          checks       from       OWCP.      Her

     husband      was subseouently              ind_cted      in Baltimore,              Maryland,       on

     12   counts     of    aiding        and     abett_no          the     theft      of      government

     property.       (United           States    Vo     Linda       Moore,       United       StaLes     v.

     Sterling     Moore, Distr_ct             of Columbia)



•    A postal      worker        who    reportedly          injured       her     back     in    1974    by

     slipping      on a rubber           band     and    who had         received        over    $77,000

     in FECA benefits            was     indicted       in September             1981.        This is a

     significant      case       for FECA because            the indictment              was based on

     disproving      the    claim       of    injury,       rather        than     the more       common

     indictment     of      Oivino        false       information.              Our    investigation

     disclosed      that        the     defendant           was     attending          San Francisco

     State     University         during        the     period       of     the       c]aim     and     had

     received      a grade       of A in tennis.                  (United       States       v. Dorothy

     Carr, Northern        District          of California)



•    A    Joint     OIG-Secret           Service         probe       has        resulted         _n     the

     indictment      in      July       19P1      of    a     DOL        employee        in     Seattle,

     Washington,          who     was        charged        wlth         stealing          $30,000       in




                                                - 76 -
     compensation              checks          from        OWCP.      The     defendant           resigned

     shortly          after    the       _nvestloation             began    and     is    scheduled        for

     trial      in October.              (United States            v. Frederick          Smith,       Western

     District         of Washinoton)



Employment      and Training            Administration

•    A    Trade       Readjustment             Act    cialmant       in Boston,          Massachusetts,

     was found to have heen gainfuiiy                             employed    at the same time he

     had       received        about      $9,000        in    benefits.            He    has    aoreed      to

     pIead       quilty        to    a    one-count           indictment          and    to     make      fuii

     restitution.              (United          States       v.     Aldo    Stabiie,           District     of

     Massachusetts)



•    As    a    result        of    a     joint       OIG-FBI       investigation,              the    former

     executive          director          of      the       Community        Regional          Opportunity

     Prooram           in      Chicopee,             Massachusetts,           was        sentenced          in

     September          i98i    to       one    year       in prison,        two    years       probation,

     and ordered            to make       restitution             of $7,550       by a U.S. District

     Court       in     Springf_eid.                 The     man     had     converted          more      than

     $I?,000          in CETA       funds       to    his    own     use    by carrYing           "no-show"

     empioyees         on the Dayroii.                  He had      also    extorted       about $i,500

     from       the    CETA-paid          secretary          by     requiring       weekiy        kickbacks

     from       her      saIary          to     keep        her     job.      (United           States      v.

     John L. CzeIusniak,                 District          of Massachusetts)




                                                     - 77 -
•   A   former          deputy           director               of        Americans                for       Indian           Futures          and

    Traditions                was       sentenced                    in         September                 1981       in       San         Diego,

    California,                 to       ten          years               in         prison           for          embezzlinq                over

    $24,000            tn      CETA          funds.                 (United               States            v.      William              Givens,

    Southern           District              of    California)




•   A    Joint              investigatlon                     by           OIG,             the          FBI,        and            the      U.S.

    Attorney's                office          in      Newark,                  New        Jersey,         into        allegations                  of

    CETA       abuses          Jnvolvlno              possible                      k_ckbacks,             double          billing,            and

    mismanagement,                     has        resulted                in        nine        indictments                aqainst           nine

    defendants                who       have        plead             guJ]ty               to      felony           and       misdemeanor

    counts.             (United              States             v.         Paul            Peacock,               United        States             v.

    Brewer         Brunson,              United             States                   v.     Ethel          M.       Searles,              United

    States              v.             _atthew                      Ballister,                       United                States                  v.

    Joseph        R.        Caldwe]l,              United             States               v.      Arthur           Fladoer,              United

    States        v.         Renee       Starks,                United                States         v.          Robert        J.        Stover,

    United        States          v.     Ernest          Seald,                 District            of      New Jersey)



•   A   CETA           participant                 was          indicted                   in      Denver,               Colorado,             for

    making         false             statements                     and         subseouently                      plead         guilty             to

    charges          of       obstructing                  an         investigation.                             Based     on        a    report

    from       the      CETA           Drime        sponsor                    that        a    participant                was           holding

    outside            employment,                    the           investigation                         confirmed                 that       the

    partlolpant                worked             n_ghts             at        a     Iota1         p].ant          where        he        earned




           !
                                                                -     78        -
    from $Ii,000       to $16,000 a year while receiving                                  CETA wages         and

    supportive        services           exceeding        $9,500.                 (United        States          v.

    Alvin J. Sais, District                of Colorado)



•   A    joint     investigation             with         the          U.         S.      Department             of

    Aoriculture         OIG        has      resulted              in        the        indictments           and

    sentencing        of a man and woman who operated                               a day care center

    that was a CETA subgrantee.                       They plead guilty                   to conspiracy,

    embezziment        of    CETA    funds,        and    makino            false        statements.             In

    April     198I,    the    woman        was    sentenced             to        five    years       on    each

    count.        Sentence         was      suspended             and        she         was     placed          on

    probation      for three        years;       also,        she       wili       not    be     allowed         to

    participate        in    any    state        or    federal           programs          and       she    must

    perform      15 hours      community         service           per month.              Imposition            of

    sentence     on the man was suspended,                        and he was placed                  on three

    years     probation.            (United           States           v.     Fannie Triplett                and

    Calvin Triplett,          Northern       District         of M_ssJssippi)



•   Four    officials       of the        Tribal       American             Consulting          Corporation

    in Los     Angeles,       California,             were    indicted             in August          1981       on

    charges      of conspiring            to defraud          and       embezzle          the    government

    of   $58,000       in    CETA    funds.            The     investigation,                   based       on    a

    Questionable        Activities          Report       of October                1978    from a former

    bookkeeper,        discIosed          that     DOL       money          was used            to    pay        for

    personal      expenses,         first-class           air          trips       to     Mexico,          and     a

    I978     Porsche.         (United       States           v.     Sandy          E.     Gibbs      et     al.,

    Central District          of California)




                                             - 79 -
•      ETA      has     instructed             K_ng-Snohomish                    Manpower           Consortium            in

       Seattle,         Washington,           a     prime         sponsor,         to     recover          CETA        funds

       from      the        Operation         Improvement                Foundation             (OIF).            An     OIG

       investigation,                based        on     the        prime         sponsor's             allegations,

       established            that    OIF     had       overbilled              CETA     $9,625         for      building

       space,     had        used     $]6,000           in     CETA       funds        budgeted         for      rent     to

       make     unauthorized               repairs           to    the     buildings,           and        had     earned

       $53,000         by      rentino            several           facilities            in        the        bui]dinQ,

       placJno        the    money      in    a special            account        and     not       reporting           this

       as program           income.



•      A     regional        director         of        the       Veterans         Employment              Service        in

       San    Francisco,            California,              entered       a    guilty       plea         to    conflict

       of      interest         charoes            filed          _n      the      U.S.        District            Court,

       Washington,            D.C.,         and        was        subseouently            removed              from      his

       official         position           with     the       Department.               At     the      time      of     the

       offense,          the         employee           was         the         government's                 authorized

       representative            on     several         contracts,              including           three       totaling

       $21,000        in which        he    had    a "kick-back"                arrangement.



Mine   Safety     and       Health     Administration

•      In     April     ]gB],        the     president             of    Tazco,         Inc.,       a     former        MSNA

       coal     mine        inspection            supervisor,              was      indicted            in      Roanoke,

       Virginia,        on     charges       of     conspiracy,             conflict           of    interest,           and




                                                        - 80 -
      filina        false        statements.               He    owned,         operated           and   supervised

      inspection           of     the    Tazco       Coal        Company        wh_le     employed           by   MSHA.

      He    plead     guilty        to    one      count        each     of    conf]ict        of    interest         and

      fJ]ino        false        statements,          and        received        a    three-year            suspended

      sentence,            was      fined          $7,500,            and      placed         on     three        years

      probation.             (United          States         v.       Paul      MerrJt        et     a].,     Western

      District        of    Viroinia)



Occupational        Safety        and     Health       Administration

•     An    _nvestigation               of    an     OIG    hotline            complaint           confirmed         that

      the    area     director           in an       OSHA       office        ordered      the      timekeeper         to

      submit     an    amended           false      time        card     for    him     for    a pay        period     in

      January         1981.             Federal        prosecution               was      declined            and      an

      Investigative                Memorandum              was         sent      to      OSHA         authorities.

      Effective        July        13,       1981,     the        area      director       was       removed         from

      the    federal        service.




                                                       - 81       -
OFFICE    OF AUDIT

During    this     reportina          period,       250    audit       reports      were    issued    on   DOL

programs.          Many         of        these        reports         outline        deficiencies          in

contractor       and    erantee           operations.            The    audits      were    performed       by

OIG   auditors,        state        and     local    auditors,          and   CPA    contractors.          The

table    below     summarizes          our     audit     activity       by    prooram      area.




                                      SUMMARY OF AUDIT ACTIVITY
                                    April 1 - September  30, 1981

                                     Reports        Amount of                    Grant/Contract
        A_ency                       Issued         Exceptions      I            Amount   Audited

        ETA                           223           $7_,903,144                  $4,459,770,060

        OSHA                           17                 _58,g64                       42,557,432

        MSHA                              8               518,833                        4,186,422

        OASAM                             2                         -                       325_460

          TOTALS                      250           $78,080,641                  $4,506,839,374




I Throughout        this      report,     audit     exceptions       include     both
ouestioned       costs      and     costs    recommended       for    disallowance.
Ouestioned     costs    are expenditures       without    sufficient     documentary
evidence    for the      auditor     to make    a conclusion      on allowability.
Costs    recommended       for    disallowance     are   expenditures      that    the
auditor    judges,     based    on available     evidence,    to be unauthorized
under the terms of the grant or contract.



                               /'




                                                     - 82   -
The   followino         chart      provides        another       picture          of    the   composition        of

costs     ouestioned,           and    it    is    followed          by    discussion          of   the    major

activities       by prooram.




            Composition of Costs Questioned During the Current Period
            April 1, 1981 through September 30, 1981

                                                    $78 million




                                                         $54.6




                 Other DOL Prograrr
                                $1.2




Employment        and    Training        Administration



                                            CETA   Prime     Sponsors

We      issued     ]33     audit        reports       on     CETA         prime        sponsors.      Of     $2.2

billion      audited,         $55      mi]lion      in     grant      funds       was    ouestioned        due   to

 lack    of documentation              for   expenditures            or non-compliance              with    CETA




                                                      - 83       -
reoulrements.            Following        is    s    list      of   audit     exceptions,           the    number

of     reports     conta_nlng           those       exceptions,          and     the       amount     of    audit

exceptions:



                                                 Number of Reports                         Amount of
Audit     Exception                              With Exceptions                           Exceptions

Ineligible        participants                                 84                          $20,314,856

Unresolved        subgrantee          audits                   96                           17,392,187

Insufficient           documentation                           50                             4,208,026

Unallowable        expenditures                                44                             1,166,463

Cost    lim_tstions           exceeded                         36                             3,659,220

Improper      allocation         of     costs                  17                             4,735,766

Inaccurate        flnanclal        reports                     18                             1,370,556

Other                                                          45                            I_786_315

     TOTAL                                                                                 $54,_33,389



Four    reports        are    described        be]ow      to    illustrate           the    types    of    audits

conducted        and    the    findlnos      identlfled             during     the    reporting       period°



•       Alaska     Balance       of State 2

        The   amount          audited     for       the   2V-month           period        ending    September

        30,   1979,      was    $32.8     million.          We      ouestioned        $261,000.



2 A balance             of state   prime   sponsor covers   those   entities                                 in a
state   that,          by themselves,    are too small    to oualify    as a                                prime
sponsor.




                                                     - 84 -
        We    reported          that:

        -     Costs       reported              to     DOL     exceeded           amounts        recorded           in     the

              state's       official             accounting          records        by    $42,000;

        -     the     state           had       erred        Jn      allowing           $9,000        of     subgrmntee

              auestioned           costs         pertaining           to     nepotism           and    excess        salary

              payments;          and

        -     the     state       had        not      recovered            $2]0,000        of    Questioned           costs

              that    had       been       disallowed.



    •   Hawaii       Balance          of    State

        We    audited           $12     mi]lion            coverJno         a     three-year           period        endino

        September           30,        1979.            We     Questioned               $206,000.             The     prime

        sponsor           failed           to    meet        minimum         trainlna            requirements              for

        Public        Service          Employment            programs,            resulting           in    $181,000        in

        Questioned           costs.              Also,       for     audits        of     subgrantees,              $14,000

        was     charaed          to     the          grants;       however,         no     audit           reports        were

        _ssued.           Earlier           suborantee            audits        contained         $10,000         that     had

        not    been       resolved          at the         time     of our        audit.




    •   County       of    Venture,             California

,       Unlike       most       audits          of     Drime       sponsors,        which        cover       one     or    two

        years,       this       audit        covered          five     years--Auaust              1974       to     the    end

        of     Septemher          1979.              The     county        received         $57.4          mlllJon        from

        CETA     over       the        five-year             period        and     the     auditors           auest_oned

        $77],866          and    recommended               $553,423         for    disallowance.




                                                             - _5     -
    The    report       identified             def_ciences                that     included:

    -     Lack    of    documentation                to support             expenditures,

    -     failure        to     reconcile              grantee             cash      records        to    what     was

          reported       to    DOL,

    -     lack    of an       approved          interest             cost    allocation         plan,

    -     failure        to     refund           $21,618             of     interest         earned       on     money

          received       from       DOL,       and

    ,     failure        to    maintain              current              property         records       for     fixed

          assets.




    A     conclusive           statement              on        the        county's         internal          control

    system       was    that       a clear        audit         trail        from     financial          reports    to

    support       documents              was     lackino,             and     extensive         reconstruction

    of     accountino          records           was       necessary              before      costs       could     be

    presented          in report          format.



    An    accountino          svstem,          w_th     the       shortcominos              described         in th_s

    report,       fails       to    provide          management             with      accurate        reports      and

    makes     it possible            to commit             an    error       and     not    detect       it   easily.




o   Mercer       County_       New       Jersey

    For    the    21-month          period        covered             by    this    audit,     we     recommended

    that    $89,209       of       the    $9.9       million          audited        be    disallowed.




                                                      - 86       -
     Many      of    the         disallowed                 costs       resulted           from        failures        in    the

     grantee's               financial                      management                system,               which          needs

     strenothenJng                and       is vulnerable                to other           abuses.



     We reported             that:

     -    Excessive                  waoe        payments               to        participants               resulted         in

          disallowed              costs          of    $21,184;

     -    costs         reported                 to     the        Federal           Government             exceeded         the

          incurred           costs          by    $3a,870;

     -    of     ]00    pattie]pant                    records          selected           for     samp].]ng,         20    were

          missino,           resultino                in    euestioned             costs     of       $15,897;

      -   of      lO0        random]y                 selected           waoe        payments,              64     were     made

          without            supportino                    attendance             records          (the          grantee     had

           relied           on        telephone                 information            from           the     work        sites)

          resulting              in disallowed                   costs       of    $7,102;        and

      -    lack        of        a     system              to     resolve           subgrant            audit        findings

           resulted          in disallowed                      costs    of       $8,391.



      Until       Mercer             County           develops           better        financial             and     internal

     controls          over          its     CETA           prooram,          DOL     has        no    assurances           that

      such     deficiencies                 will       not       recur.



                            Indian          and        Native       American          Grantees

Durino    this      reportino              period,           22    audit          reports        coverino          Indian    and

Native    American          proorams             were        issued.              Certified           public       accountino




                                                                - 87     -
    firms        performing               the       work,        under        contract          with       DOL,           collectlveIv

    audited            $14.4            million         of        which         $70,509             was      recommended                  for

    disallowance               and        $155,014           was       classified             es     ouestionahle.                     Costs

    recommended             for          disallowance               primarily             resulted             from         ineligible

    participants                 ($32,695)                 and         lack        of      approved              Indirect               cost

    allocation            plans          or     other        doumentation                to     support          the        allocation

    of    indirect             costs           ($?3,039).                Costs          classified             as         ouestionable

    primarily           resulted           from       the      followino:

             -     Ouestionable                 participant              eligibility               ($53,782);

             -     lack        of        DOL       approvals           or     improper             charaes           to     the        grant

                   proaram              ($33,500);

            -      improper              procurement             procedures             ($37,633);             and

             -     lack     of      supporting              documentation                 ($17,530).



    Also,        these         reports              include            57     procedural              findings,                 detsllino

    deficiencies            in the             grantees'           administration                  of the       prooram.



    Of    the     22      reports,             19    include           findinos          that       disclose          deflciencies

    in    the      grantees'               financial               manaoement              systems.              The            financial

    manaoement             system             of      the        United         Urban         IndJan           Club,            Inc.     was

    seriously           deficient              and     the       CPA    firm       disclaimed             an    opinion            on     the

    financial             statements.                  Its       system         was       not       desJoned               to     provide

    accurate,              current,                  and         complete               disclosure               of             financial

    transactions.                   A    oenera]           ledoer        or     journal            was    not       maintained             at

    any     time       durino            Fiscal        Year        1979.           Lack       of    a     oenera]           ledger         or




                                                                    - _8       -


\
journal      precludes       any     assurance         that       grant         activities          were

properly     accounted      for and precludes           _deouate      disclosure            of assets

and   11abilltles.          We    recommended        that     the     or_ntees'            accounting

systems     be   reviewed         durlno      monitoring          visits        by    ETA     Federal

Representatives.



                     Miorant and Seasonal            Farmworker       Grantees

During     this report_no         period,    13 financial           and    compliance         and    two

indirect      cost     reports       were      issued        on     Miorant          and     Seasonal

Farmworkers      Grantees.         The total        amount    audited       was $58.7         million

of which     $1.8     m_llion      was     recommended        for    disallowance           and     $6.9

million     class]fled       as    ouestionahle.         Costs       were        recommended         for

disallowance     prlmarily        because     of:

      -     Improper contracting            and procurement          ($i,000,000),

      -    excessive       administrative       costs ($218,000),

      -    insufficient       documentation          ($180,000),          and

      -    unresolved       prior audit findings             ($147,000).



The main reasons        for the ouestionable            costs were:

      -     Improper or unsupported            allocation         of costs        ($4,700,000),

      -    insufficient       documentation          ($781,000),

      -    inellgible       participants       ($646,000),          and

      -    improper     contracting         and procurement          ($207,0P0).



•     An    _udit     of    the     National        Farmworkers'           Service         Center     in

      Keene,        California,          d_sclosed      that        the         grantee      had      an




                                              - 89 -
    inadeouate           financial             management          system.          This       grantee     was

    awarded        two       DOL     grants          for    a    total      of    $804,78_.        Incurred

    costs     were       $705,504           of which          $259,]04       was     ouestioned         mainly

    because        of        oarticipants'                 ineligibility.               Some     ineligible

    participants             were        not     U.S.       citizens        or     registered          alienso

    Other        reasons           for      the        ouestioned           costs       were     inadeouate

    supporting           documentation,                excessive          administrative           charges,

    lack of reouired                 DOL approvals,              and duplicate          charges.



•   An audit        report         on the Center                for Employment          Training       in San

    Jose,     California,             ouestioned            $3.5    million        of $7.4      million     of

    audited       costs.           Most     of these            costs     were      ouestioned         because

    the     method          used      for      the     allocation           of    indirect       and     joint

    costs        was     unsupported              by       reasonable        documentation.              Other

    causes        were       Inadeouate              supporting           documentation,           lack     of

    reoulred       DOL approvals,                 undocumented            participant          eligibility,

    and improper            procurement           procedures.



    The     auditors'           opinion           states         that     the      grantee's       reported

    financial               information                 was         not           presented            fairly.

    Specifically,               the         auditors             found      deficiencies           in      the

    grantee's            accounting               svstem,          indirect          and       joint      cost

    allocation              plans,          participant             eligibility            determination

    system,        payroll           and       personnel         records,         and    monitoring        and

    evaluation         of    suborantees.




                                                     - 90 -
               Job    Corps     and     Civilian       Conservation          Center     Reviews

During       this     reporting         period,        14    audit    reports        and     one     indirect

cost      report      were     issued.          These       financial        and     compllsnce        audits

covered       $5?    million       in   expenditures,             of which     we    took    exception      to

almost         $7       million.              The      reports        note         accounting          system

deficiencies,            insufficient           documentation         to     support       claimed     costs,
and      inadequate        procurement             procedures.        The      types     and     amounts    of

audit     exceptions         are    listed      below:



                                                    Number of Reports               Amount of
Audit     Exception                                 With Exceptions                 Exceptions

Undocumented     approvals              for
  capital    improvements                                     i0                    $4,842,814

Inaccurate          financial
  reports                                                     12                      1,669,511

Insdeouate   procurement
  procedures                                                  10                           94,505

Budget       exceeded                                          6                           44,]78

Undocumented           approvals        for
  training          projects                                   5                        277,963

Insufficient            documentation                          2                           661905

   TOTAL                                                                            $6,995,87_


Due     to   these       exceptions,          we     recommended        that       accounting        controls

and    record       retention       procedures         be    strengthened.




                                                      - 9I    -
                                    Office       of     National          Proorams

During       this    period,        ?8 audit          reports          were       _ssued        on    ONP     orants    and

contracts        awarded          to     public        and     private             agencies.            These        awards

totaled       over        $4    mill_on.          Three           of    the       audit        reports         contained

exceptions          totalin_           $26,000        of    which        $17,000          was        attributable        to

insufficient           documentation,                 $7,000           for        exceeding           grant/contract

budoets,       and    $2,000        for    participant              ineligibility.



                                State     Employment           Security            Aaenc]es

Six   audit         reports        were        issued         on       SESA's          during        this      reporting

period.        Of    $2    billion        audited,           $5.9       mi]l]on         was     ouestioned           mainly

because       one    arantee            failed     to       eauate        cash         with     expend]tures            for

closed       fund      ledgers.             The        other           ouestioned             costs         related      to

insufficlent          documentation.



o        A    f_nancial           and      compliance              review           was       performed          of     the

      administrative                funds        of     the        Office         of      Employment           Security,

      Commonwealth                of      Pennsylvania.                  In       addition,            OIG      reviewed

      supporting               summary     records          pertaining             to     federal        unemployment

      benefits         and       allowances.




      The      audit       related        to     $SS7       million          of    federal           funds,     of    which

      exceptions                totalino         $5.7         million             were        noted.           The     most

      significant               exception         noted        was       attributed             to     the     grantee's




                                                           - 92    -
    fai]ure               to      eouate            cash       with         expenditures                for      closed            fund

    ledoers.               As a result,                  the         grantee          had      overdrawn        $2.3        m_]lion

    of           federal                 funds.                 Also,              because             of        insufficient

    documentation                       to     support            cost         appropriation                transfers,             $1.5

    mill_on            was       ouestioned.




    As      a    result           of         these       findJnas,              we     have       recommended           that          the

    grantee            refund           $3.8       million           to    ETA.



•   We      audited               the         security            of      computer-based                    systems          of       the

    State         of      Georgia             Employment               Security          Aqency        (GESA),         and        found

    several                deficiencies.                          The          operatino             system           and          many

    application                    data            systems             could          suffer         from        unauthorized

    modification                   or         destruction.                     Specifica]]y,                access         contro]s

    were         lacking            for         the      operatino                system,         program        library              and

    data         files,          app]ications                   systems,              teleprocessino              system,             and

    computer               operations.                   In       addition,              the      oua]ity        contro],              or

    internal              audit          prooram_,            was      weak.          For      instance,        there         was      no

    on-goino              prooram             to      independent]y                  review       operations,              security

    policies               and      ouide]ines                 were         lackino,            procedures            to      detect

    fictitious                 employers              had      not      been         adeouately            imp]emented,               and

    agency-wide                   procedures                for      updat_no            and      access_no           files        were

    lacking.




                                                                - 93       -
         We    recommended              several             changes          in    policies        and    procedures           to

         upgrade         the       security                 of     GESA's           systems.            GESA       responded

         favorably          and    plans          to     implement            the    fol]owing:

         -     Procedures              to      control             access          to     the      operating            system,

               program       libraries              and      data       files,          application           systems,        and

               teleprocessing                 system;

         -     formal       standards               or      procedures              for    design        of    app]ication

               systems;

         -     programs           to        allow        security             violation           reporting          to      user

              management;              and

         -     procedures              to     improve            entry        controls           over    access         to    the

              computer         room         and     other         physical          security          plans.



         In    addition,           GESA        is        seeking         additional              funds        to   implement

        our     recommendations                   in the          following          areas:

         -     Standards          and        procedures             for       documentation              of    all      grantee

              systems        and       design          of    application             system       programs,

         -     ADP    policles          and       guidelines             for      internal        controls         in    GESA,

        -     an     internal          audit        unit,         and

        -     prior      recommendations                      in    our       audit       report        entitled         "Audit

              of     Unemployment              Insurance            Benefit          Payment          Controls."



Mine    Safety        and    Health          Administration

Eight        financial         and          compliance             audit          reports        of     MSHA       grants      to

states        totaling         $4.2          million             were    issued           this     reporting            period.




                                                                 - 94    -
Five       of     these        reports            contained           audit        exceptions             totallng           $518,000

of       which          insufficient                 documentation                    was       the       most       significant

exception              noted      as    shown        below:

                                                                Number of Reports                         Amount of
Audit       Exception                                           With Exceptions                           Exceptions

Insufficient               documentation                                      6                           $439,901

Improper   allocation                    of
   administrative                    costs                                    2                               78193,_

     TOTAL                                                                                                $518,833

OccupationaI               Safety           and     Health        Administration

During          this      reporting            period,           17     audit         reports         were     issued         on   OSHA

grants            to       states            totalinQ             $45.5            million.               Audit           exceotions

totaling               $659,000         were         noted         in      seven          of     the      audits;            of    this

amount,           $519,000           was      attributab]e               to       one    orantee        that        did      not   have

an    approved            indirect           cost       rate.



The      followlna           table          summarizes            the     exceptions             noted:



                                                                 Number of Reports                           Amount     of
Audit       Exception                                            With  Exceptions                            Exceptions

No indirect               cost       rate                                         4                          $605,389

Insufficient               documentation                                          3                               14,325

Unallowahle     assessments
  and penalties                                                                   ?                               13,_77

Budoet          ex:ceeded                                                         1                               12,187

Unreported/understated
   income                                                                         1                               10,785

Costs charoed                to wrono
   period                                                                         2                                2110]

     TOTAL                                                                                                   $658,664




                                                                  - 95        -
Office    of the Assistant    Secretary      for Administration      and Management

Two   reports     were    issued     on      OASAM     contracts    for     technical

assistance    studies    on   the   impact    of     proposed   safety     and   health

standards    tota]ino    $96,000.     No     exceptions    were    noted    in   elther

report.




                                       - 96 -
OFFICE       OF    LOSS        ANALYSIS           AND    PREVENTION

Between         April      i and         September             30,       1981,       four        final       loss        prevention

reports         were      issued.                These         studies             were       undertaken            to        identify

major        systemic          vulnerabilities                      to       waste,           fraud    and       abuse          and          to

recommend          corrective              actions.




-     Black       Lung    Loss          Vulnerability                Study

As    the       first      phase          of      a    two      segment             analysis          of      the      Black          Lung

Program,           this        study            focused         on       loss        vulnerabilitJes                     in         claims

processing           and        compensation                  payment             procedures           to       former          miners

disabled          from    pneumoconiosis                      (black         lung).



The      study           included                an      evaluation                  of         the        legislation                  and

regulations,              as     well       as        procedures              and     processes              related           to     bill

and      claCms           payment,                    This          report           identified                40        areas               of

vulnerability                  within            payment             system              operatlons             and           proposed

corrective               actions                for          each            of      the          areas.               The           major

recommendations                  in      this         study         included             an     integrated             ADP          system

and       improved               screening,                   control,               verification                   and             offset

procedures.



-     Black       Luno    Automated               Payment           Systems          Loss       Assessment

The    purposes          of     the      second         Black         Lung         Program        study        were       to        assess

historlal           and        continuing                resource                 loss        from    automated                payment

processes,          identify             weaknesses             in       the       program's          automated               systems,




                                                                - 97         -
and    to    recommend             corrective              actions          designed           to     reduce        future     loss

and    to    provide          for        the    early           detection             of     losses     which        may    occur.

The     study          identified               an        estimated              $35        million       in        unrecovered

overpayments;                $44     million              in    improper           pavments           made     between         1973

and    ]980;        and       a     number           of     computer             system        and      internal           control

weaknesses.                 Amono        our     recommendations,                       we     proposed         a     number     of

computer          system          modifications;                     that       action        he    taken      to        eliminate

continuino             overpayments                   and        to         recover           documented             historical

overpayments;                re-validation                  of       payment           records;         and     implemention

of    improved         f_sca]        systems           and       controls.



-     Loss    Vulnerability                   Assessment              of    FECA       Benefit        Payment        Prooram

      Operations            in Six           District           Offices

In    September             1981,        a    report           was     issued          on    our      loss     vulnerability

assessment             of     six        district              offices           of     the        Division         of     Federal

Employees          Compensation,                 Office              of    Worker's           Compensation               Proorams,

ESA.        Our    assessment                 covered           the       bill    payment,            c]aims        processino,

manual       compensation                payment,              mail       and    file        operations         and       computer

security          for        six     offices              responsible                  for     receivino,            examin_no,

adjudicating                and     pay_no            claims              filed        under        FECA.           Th_s      study

represented            an     expansion              of    an     earlier          study       conducted            in    DistrJct

Office       25   in Washington,                  D.C.



The      assessment                was         conducted              over         a        three-month          period         and

involved          an    on-s_te              review       of     operational                 procedures.             Interviews




                                                                 - 98       -
were     conducted        with       district        office        personnel,         work     flow     was

tracked and monitored                and a computer             security     survey was conducted.



As a result          of this ana]ys_s,             we concluded        that there are a number

of     procedural       controls          within     the       FECA benefits     payments        program

that,       _f adhered      to,      can     limit       the    susceptibility        of the     program

to loss through           internal          and external          fraud and abuse.            We found a

general       lack     of security          consciousness          among     FECA district          office

staff       and little      evidence            of the implementation           of recommendations

made previously           in our District                Office    25 study.         Thirty     specific

findings        were    _dentified          and corrective          actions     were     proposed       for

each    area.



-    CETA Eligibility           Determination             and Verification           Systems

Past OIG audits           and investigations                   have very freouently           identified

participant          ine]ioib_iity           as a major           problem.      In this        study,    we

attempted         to address         this       problem    from a     systemic        point     of view.

The purposes           of the study were:

        -    To    review      and    evaluate           the    eligibility     determination           and

             verification         systems         utilized        by five     selected       CETA     prime

             sponsors;

        -    to identify        aspects           of the screening           systems     studied       that

             appear       to         be         highly         effective       and      may      warrant

             consideration           for replication              or adaptation        by other        CETA

             prime sponsors;              and




                                                    - 99 -
          -     to     identify          aspects          of           the        screening          procedures                 surveyed

                that         appear              to       be            ineffective                   and            may         warrant

                consideration                for      discontinuation                     or modification.



Althouqb             we      found           a        number             of        practices               that            tended         to

characterize                the    more          effective               prime          sponsors,               these          practices

were      not      related         to    the       screenino                 orocess,        but          more       to    manaqement

suoport         and      direction.               The    conclusion                 of     this       study          documents          the

belief        of     many     seasoned            CETA       specialists                  that       --    except          for     strong

and      diligent            proqram          management                    --     there        do        not        appear        to     he

c]early            identifiable               screening                 technioues,                  or     combinations                  of

technioues,               that       can         serve            as        replicable               "model"              elioibility

proarams           for    all     CETA       or_me       sponsors.



Our      study        did     make       a    number          of        recommendations                     in       the       areas      of

training,                pre-enrollment                   documentation,                          thirty-day                    reviews,

ouarterly             eligibility                verifications                      and     Independent                    Monitoring

Units.




In       addition           to     the           reoorts           described                above,              we        issued        the

fo]lowino           draft       report        to      ETA:

-     Loss      Vulnerability                Assessment                of    Unemployment                 Insurance             Benefit

      Payment         Systems        and      Operations

This       review           encompassed               opermt]ons                   of     the        central              office        and

se]ected           local     offices          in      seven        states,              representative                    in   terms      of




                                                              -    I00        -
payment           procedures,                 employer                  reporting                procedures,                 unemployment

rate       and    stress             rate     (_ncrease                  of       unemployment              rate        in      Fiscal         Year

1980       over    Fiscal            Year     197Q).



The      primary               objectives           of        the            study          were      to        analyze           select          UI

benefit           payment               systems               and                 operations,               to        identify                 loss

vulnerabilitJes,                      and     to     recommend                     appropriate             counter-measures                       to

eliminate          or          minimize        the       potential                      losses      that        could           resuJt         from

systemic          weaknesses.



Although          the          Department           of     Labor                  and     the     states         have        instituted               a

number       of    positive             controls              to        deter            fraud     and     abuse           by    claimants,

employers           and         UI     employees,                  it        is      apparent            from        our        review         that

weaknesses             still         exist      within              the           individual          state          programs             in    the

areas       of     computer             and        terminal                  security,             payments             (specifically,

pay        order           card          processing),                         and           check          and        cash          control,

particularly               as     it relates              to mailroom                      operations.



Additional              findings             were        presented                  in      the     areas        of        employer            tax,

benefit          payment          control          units,               data        entry,        and      building             security.

Althouoh          the          analys_s        involved                  a    limited             sample        of      state       systems,

it    is    believed              that       many        of        the            findinos         and      recommendations                     may

be    used        by      other         states           to        assess                their      current           procedures                and

operations.




                                                                        - 101        -
Finally,        agency         comments           were       received           on       a     report        _ssued        in     a

prior     reportingperiod.



-     Migrant      Farmworker          Housing           Conditions

In the     study,        we    reviewed           migrant       farmworker                housing          conditions           in

selected        areas     of    Maryland,           Virginia            and        North       Carolina.            We    found

poor      conditions           in      33     of       72     migrant              camps           visited         and     fair

conditions         in     another           17.        We     also           found        lack        of    coordination

between      the    three        DOL    agencies             responsible                 for    migrant          conditions

(ETA,       ESA       and        OSHA),            conflicting                  housing               standards,            and

disproportionate                 inspection                 coverage                of         miarant             employers

utilizing       the     Employment           Service          for     this         ]abor       supply.



We     recommended         that        the     responsibility                   for          actual        inspection           of

migrant      housing            conditions             be       assigned             solely           to     OSHA,         that

unified      migrant          housing        regulations                be     established,                and     that     the

agencies        involved         with         various           aspects             of       the     m_grant         program

_mprove     coordination            with      each       other.



The      agencies             agreed         that           there            was         a      need         for         better

coordination.             They      believed,               however,           that          the     responsibilities

traditionally            assigned            to    the       separate              agencies            should        not        be

eliminated.           Actions        taken        to     date    by      the       affected           agencies           shou]d

remedy     most     of    the       problems           relating          to        coordination              end     uniform

standards.




                                                         - 102      -
OFFICE        OF   ORGANIZED            CRIME         AND       RACKETEERING

During        the      period           of      April           1    throuoh              September              30,     1981,         the

Office        of     Organized               Crime         and      Racketeering                   ooened        42      cases.         Of

these,        19     were        referred             to     the         Department              of    3ust_ce,            or       other

authorities           for        possible            prosecution.



There      were       27         indictments               involving                64     individuals                 during        this

reporting          period;            25     individuals              were          convicted,             and    the     remainino

defendants           are     awaiting           trial.



Some    examples            of    cases        follow.

•        An    OIG     _nvestigat_on                     lead       to    a     50-count             indictment           in     August

         1981        against            three         officials                of        the       Allied           International

         Union         of         Security               Guards            and           Special           Police          and         the

         Federation              of        Special          Police            and        Law       Enforcement             Officers,

         charaino                them         with           bribery,                 obstruction                   of      justice,

         embezzlement,                and      a state           arson         offense.



         Daniel            Cunninoham,                president                of        the       union,         attempted             to

         obstruct           OIG's          _nvestioation                  of       embezzlement              by     offering           one

         agent       a $25,000               bribe        and       payino          another          aoent       $2,600        to    stop

         the        investigation.                         He       also           plotted            to      have         his         DOL

         investiaative                  file         stolen          and           the     OIG       office         burned          down.

         His       negotiations                 with        the          agents           were        taped         by     OIG.         He

         additionally                  attemped             to       influence                 the      testimony              of      two




                                                                 - 103         -
    government            witnesses               through         threats           and        bribes           and    burned

    down     his      union        office          to     destroy        union       records              subpoenaed          by

    the     grand        jury.             (United        States        v.    Daniel           Cunningham,             Herman

    Jaffe F and          Salvatore            Ponte,        Eastern           District          of New           York)



m   Following            an      OIG        investigation,                Robert           A.        Lins,        a    former

    president          of      Teamsters                Local     299,        International                     Brotherhood

    of     Teamsters             in     Detroit,           and     two        current           officials             of     the

    local     were       indicted            in     August       1981        on    charges           of     embezzlement

    of     union         funds,            conspiracy             to     embezzle              union            funds,       and

    obstruction               of        a     grand            jury       witness.                   The         indictment

    specifically                 charged            the         defendants               with         conspiring              to

    embezzle          the        funds        of        Teamsters            Local        299        and         converting

    those        funds      to     their          own    use     and     the       use    of     others.              Further

    charges         are       that          the     defendants               granted           and        caused       to     be

    granted        pay        raises         for     the       business           agents        of     local          299    and

    that     the       defendants                 collected            and        caused        to         be     collected

    funds     from       the       business             agents     of    local       299        from       1978       to    1980

    for    the     purpose            of    financing           their        election           campaign.              (Local

    299     is     Michigan's               largest         Teamster              local        and     is        nationally

    known,         having             been         the      home         local            of         former           general

    presidents           James         R.    Hoffa        and     Frank       E.     Fitzsimmons.)                    (United

    States       v.   Robert           A.    Lins_        Raymond        H.       Banks t and             Eugene       Davis,

    Eastern        District           of Michigan)




                                                         - 104     -
•   The        investigation                   by    OIG     and      the           New     York     State          Police       lead

    to     charges            aoainst               Richard          Vaccaro,              business            manager          since

    1954         of         Laborers                Local      333          in         Syracuse,            New       York,             of

    embezzlement                  of     union        funds      and           mail        fraud.         He     plead        guilty

    to     these       charoes                and    the     plea      was           entered        in     satisfaction                 of

    all     possible               charoes           aoainst          him       relatino            to    embezzlement                  of

    union        funds             by     skimmino            dues         payments,               double           bil]ino         for

    travel        and        convention               expenses,                and     having        the       union       pay      for

    his         personal                 expenses.                   The            amount          embezz]ed              tota]ed

    approximately                       $20,000.              The       investigation                     also         uncovered

    evidence               that          Vaccaro            forced             union         members           to      work         for

    nothing           on     the        construction             of        a    $200,000            residence           he      built

    near        Syracuse.                  (United           States            v.      Richard           Vaccaro,          Eastern

    District           of     New York)



•   In         the          continuing                  investioatJon                       by       OIO,            local          law

    enforcement,                  and     the        IRS    into      organized               crime's          more     than        one

    half        century             of        influence          in        the         Fulton        Fish           Market,         the

    ]atest            results                 are      an        167-count                   indictment               of        e_ght

    individuals.                    Three           officials          of           the     United        Seafood          Workers

    Local        359        and         its    associated              employee               benefit          plans       (one         an

    alleoed           high-level                member         of      an       organized            crime          family)         who

    control            and         dominate            the       local               and      its     employee             benefit

    plans,            are         included             in      the         indictment.                   Charges           include

    receivino                approximately                    $700,000                 from        businesses              in       the




                                                             - 105         -
    Fulton     Fish        Market        throuoh           extortion             and     prohibited            employer

    payments.              The         five         businesspersons                     were         charoed          with

    extortino           money      from        firms        in    the       market         and       providing         the

    proceeds        to     the     union        officials.                  (United         States        v.    Carmine

    Romano     et       al.,     Southern           District          of    New     York)



e   Louis     Sanzo,           president            of     local           29,     Blasters,           Drillrunners

    and    Miners        Union,        was     convicted             on    charoes        of     tax    evasion        and

    conspiracy           to    commit         tax     evasion.              The     charges          relate      to    his

    receipt        of    over     $200,000           from       a construction                 company.          He    was

    found      innocent            of        racketeering                  charoes.              Amadio         Petito,

    secretary-treasurer                   of        the     local          was     convicted           of      criminal

    contempt            and       perjury            before               the      grand          jury.          Samuel

    Cavalieri,            Sr.,      was        also        convicted              of      criminal           contempt.

    Thomas        _ancuso,         alleged            high-leve]                 organized         crime        member,

    was    also     found        guilty        of    contempt,             but     died     of    natural        causes

    before     sentencing.                (Based           on    evidence           presented          to      him,    the

    District        Court        Judge       found        that       Cavalieri          was      a member        of    the

    Luchese         organized             crime           family           under         the      leadership            of

    Antonio        "Tony        Ducks"        Corallo           and       that     Sanzo       and      Petito        were

    associated           with      organized              crime           figures.)            The      IRS     entered

    the    case     after        OIG     developed              evidence          of    income         tax     evasion.

    (United         States         v.        Louis         Sanzo,           United         States         v.     Amadio

    Petito,       United         States       v.     Samuel          Cavalieri          I Sr.,       United      States

    v.    Thomas        Mancuso,        Eastern           District          of    New    York)




                                                     - 106       -
•   William         Koenio,         organizer           and        business              representative              for

    local      5,      Internationa:_              Brotherhood                    of     Boilermakers,               and

    president         of      the      International                   Brotherhood               of     Craftsmen,

    Professionals,            and     Allied        Trades             was     indicted          on     charges       of

    extorting         and     receiving         more          than       $30,000           from       Long        Island

    businesspersons            and     with        embezzling                over       $12,000         in    medical

    plan      and     welfare         fund      money.                 (United           States        v.     Wllliam

    Koenio,     Eastern        District        of       New    York)



•   Follow_no         investigations               by     the          FBI     and       OIG,     a     grand       jury

    returned        a three-count            indictment                for     violating          the       Racketeer

    Influenced        Corrupt         Organizations                (RICO)          statute        against          Harry

    Gross,      a    local      282      International                   Brotherhood              of        Teamsters

    business          agent,         including            charges                 that      he        obtained          a

    "no-show"          job      for       his           chauffeur                 from       a        construction

    corporation,            received     two        cars       worth          a    total     of       $]9,000       from

    two     excavation         companies,            and       extorted                $2,500     from        another

    construction            corporation.                 (United             States        v.     Harry           Gross,

    Eastern     District        of     New   York)



•   A   special      grand     jury     in September                   1981       indicted        John       P.    Duff,

    international            vice      president              of       the        Distillery,           Wine,        and

    Allied          Workers           International                     Union            headouartered                in

    Enolewood,         New    Jersey,        and     also          a    salaried          official           of    three

    Chicago         local     unions,         and        Howard           3.       Hansen,        president           of




                                                - 107         -
    local         3,    of     embezzlino                over          $I00,000              from      local          3     _n        Chicaao

    and      local         42      in       Detroit,              Michioan.                    Specifically,                      Duff           is

    charoed            with     embezzlino                 and        convertino              to     his        own        use        and       the

    use      of        others         $94,064              from         the       two         locals;            and         Hansen              is

    charoed            with     embezzling                 and        convertino              to     his        own        use        and       the

    use      of        others         $27,192              from         the       two         loca]s.             Duff            is        also

    charged            with     falsifyino                 records            of     local           3.         Amounts               charged

    include            unauthorized                   salary           increases,                  unauthorized                  year-end

    checks,         unauthorized                      expense           payments,             and      diversion                 of      local

    42     dues        check-off            money          to         local       3.          (United            States           v.        John

    P.     Duff     and       Howard            3. Hansen,              Northern             District            of        Illinois)



•   Following            a joint            FBI        and      OIG       investigation,                     a     federal               orand

    jury     in        Tucson         returned             a     ten-count              indictment                of        conspiracy

    to     embezzle           union         funds,           embezzlement,                    and     mail         fraud              against

    five      officJa]s               of        the      Laborers             InternationaJ                      Union           of      North

    America.              The      indictment                   dealt         w_th           the     establishment                         of      a

    severance            fund      for          officers              and      business              aoents           of     local              479

    of     Tucson        and     local            383      of     Phoenix              without            the      authorization

    or      knowledoe              of           the        memhership                   of         either             local.                    The

    indictment                charges             that          the       defendants                  conspired                  to         take

    approximately                  $350,000                  from           the         locals.                  Named            in            the

    indictment            are      Mason              Warren,           international                   vice          president                  of

    Laborers             and          past             secretary-treasurer                             of         the            Laborers

    District            Council            of    Arizona;               Fred       J.    Brown,             president                 of        the




                                                             - ]0_, -
    Arizona      AFL-CIO,          former       business        manager       of    local       479     and

    president         of    the     District          Council;        William           Soltero,       Sr.,

    business      manager          and        secretary-treasurer             of    local 383           and

    business      manaoer          of    the     District        Council;          Ermilio       Torres,

    business      manaoer          of     local       479     and     vice    president          of     the

    District      Council;         and        Francisco       Lozano,        secretary-treasurer

    of   local    479       and deleoate             to the     District        Council.         (United

    States    v. Mason Warren et al-, District of Arizona)



•   A federal      grand       jury       in New       Jersey        returned      two     indictments

    against      Ralph        O.    Torraco,           the      principal          officer       of     the

    accounting        firm of Bernard                Torraco     & Company,         accountant          for

    numerous      Teamster         locais        and     benefit        funds      in     New    Jersey,

    including      the       Trucking          Employees        of    New    Jersey       Pension       and

    Welfare      Funds       and        the     Truckino        Employees          of     Passaic       and

    Bergen       Welfare          and     Pension           Funds,      which       are      al]eoed]y

    controlled        by family members               of Tony Provenzano                who Js now _n

    prison.       Provenzano,            an      a11eoed       hioh-]eve]          oroanized          crime

    member,      is     a    former           vice    president         of    the        International

    Brotherhood        of Teamsters             (IBT),       former president            of IBT Joint

    Councll 73, and former president                         of IBT Local 550.



    Torraco      is charged         in one indictment                with    four counts         of mali

    fraud    and four        counts       of embezzlement              of benefit          fund money.

    He is charged           with    embezz]ino           over    $I14,000        through        a scheme




                                                - 109 -
    involving               overbilling          the       funds           for    audit         work        and      charoing

    salarles            of      his     associates           as        a     fund        expense.                 The         second

    indictment                charges        Torraco       with        ii     counts          of      tax     evasion            and

    fillno         false         tax       returns        arising           from       his      failure            to         report

    approximately                 $700,000       in       income           earned        from        numerous            clients

    during        the       period         1975-1978.



    The      IRS        joined         the     OIG        investigation                  of     this         matter             when

    evidence            of      tax    vio]atlons           was     uncovered.                  (tlnited           States          v.

    Ralph      Torraco,            District          of    New     Jersey)



•   An      OIO        investigation             has       resulted              in     an      eJoht-count                    arand

    jury      indictment               in     Camden       against            Anthony           LaMaina,             business

    manager,            and     James        Conover,        secretary-treasurer                        of        local         40-B

    of      the         International             Brotherhood                    of      Law         Enforcement                 and

    Security             Officers.             Whi]e         full-time                sworn          members             of      the

    Atlantlc            City      Police        Department,                LaMaina           and      Conover            created

    a    union         to     oroanize         security           guards          for      casinos           in         Atlantic

    City.           They        embezzled         $12,000           from         the      union         by        falsifyino

    union      meeting            minutes,        which           authorized              them        to     spend             money

    to      buy        cars       and        provide         salaries              and        reimbursements                     for

    expenses            for      themselves.               LaMa_na            and        Conover            are      Atlantic

    City      Do]ice            officers        who        were        alleoed]y              closely             associated

    with      the        late         John     McCullouah,                 president            of      Roofers                Union

    Local         30     and       alleoed        Atlantic             City           representative                    for      the




                                                       - i]0       -
late,    a11eoed     Philadelphia   oroanized    crime      boss,    Anoelo

Bruno.     (United   States   v. Anthony   LaMaina   and   3ames    Conover,

District   of New Jersey)




                                - iii -
                                                                PART       III

                                                 OIG    COMPLAINT                CENTER




During        the     period          of    April           l    through             September          30,     198],        8    total

of    982   inouiries             and      complaints                were       received           by    the    OIG        complaint

center        from       DOL     employees,             the          public,          and     referrals             from     the    GAO

hot    line.          Of       this     total,          904          were        general          inauiries           handled        by

telephone           without        the      center          opening             an    official          complaint           file.



A     total         of     78      were           considered                   to      merit        further           action         or

investigation.                   Of        these,           43       pertained               to    the        Employment            and

Trs_ning             Administration,                        20            to         the       Employment                  Standards

Administration,                   seven          to      the           Occupational                 Safety           and         Health

Administration,                   and           four            to        the         Mine         Safety            and         Health

Administration.                    Of       the        78        comp]mints,                 43    were        forwarded            for

preliminary               audit       or        investigative                    review           within        the        OIG;     the

remaining            35     were        referred                to        program           agencies           for     review        or

administrative              action.




During        this        reporting             period,              final          responses           to     183     complaints

were     received.              Many       of     these          involve             matters       received           by     the    OIG

in    earlier        reporting              periods.                 Of    the       183,     31    complaints              involved

alleaations              that      were         substantiated                    by        administrative              review        or

OIG    audit         or     investiaatJve                   work.               These       matters           are     in     various

stages      of criminal               or    administrative                      resolution.




                                                            - 112          -
                                                                                          PART        IV

                                                 MONEY            OWED           TO THE DEPARTMENT                     OF LABOR



      In accordance                           with          a reouest                    in the        report         of the Senate                    Committee

      on Appropriations                                   on      the      Supp]emental                     Appropriation                   and       Rescission

      BJ]]         of         1980,            the           followJno                   are    unaudJted              estimates                provided               for

      the        aoencles                   by         the        Department                   of     the         amount        of       money        owed,            the

      amount                  of            money               overdue,                   and          the         amount               written-off                     as

      uneollectihle                          during             the six-month                       reporting              period:

                                                                            SUM_RY        OF ESTIMATED
                                                                          D£PARIMENI        Or LABOR DEBT




                                                                      Estimated                       Estimate_                          Estimated
                                                                      Out standlno                    Dellnouen-                         Adjustments      and
                                                                      Receivables    l/               cles                               Write    Offs
                   Program                                            Sect.   30, 391_1               Sept.    30,  ]981                 FY 8] 3/
                    Nem_                                              (In thousands)                  (In   thousands)                   (In   thousands)
      'EmD]oyment      _tandards
      Jdmlr, istrat    Ion :

            Federal    Emvloyees
            Compensation      Act            (F'ECA)

               O overDayments           to
                 beneficiaries/providers                                  $ 11,600                     $ ],500                             $ 5,000
            B]aCW      Lung    Pioora,_

             o Responsible     Mlne
               Operator    re Jmburse-
               merit end overoPy-
               ments    to benefl-

                 clmries/provlders                                         l_l     ,JSP                 131,358                                            2/
      Employment   ann
      _ratn_no   Ad_]n]        stratJon:

            o ¢Jlss]]owed            cost      from

                 audltlno      or monltorlnp,                              12a,OOO                         6P,OOO                           6B,OOO
                outstendlno        Cash ha]antes
                after     contract     termina-
                tion;     eX'TOneOuS over-
                payments      to 0rantees

     Mine Safety    ann
     Health  AtlPI nJ stratJon:

            o Civil      Penalties
                from    mine       operators                                     9,100                     P,60O                              a,SOO


 Oecupst I one]    Sa fet,v
 end WPa]th     AdmJnistrstlon:

           o civil       penalties
             from       businesses                                         22,7(_0                      _l,aOO                               5,aOO

     Pension    Benefit
     C'L;erant y Corpc.-at      ion:

           o, Termlnated      plan
              assets     subject
              to transfer        and
              employer      lish]llty                                      B3,740                            661                             7,aO_

     Tots ]s                                                             $)81, a98                    $2}2 ,Of 9                          $'90,)0._

 I/       As de'ined       by O"_P BuI]etJ,         NO. B]-IT, this column     Inc]udes    s_tual recelvsbles        and                         amounts   Ide&tJfJed    er
--        contlnOent        receivables       which    Are sub._ect  to an appeals   process    which    can eliminate                            or reduce    the
          amounts      Identified.        Official      D0L reco.'ds   conform to accepted     accountlnQ    principles                            and standards     and
          wi',]  differ       frow. these     emounts.

7/        Not    provided.

._/       ]nclude.¢   write          offs  of         uncollectible        receivables          and   adjustments     of    continqent       receJvsble_        8s   a result
          of the    appeals          process.
                                                                                   - 113 -
APPENDIX
-   114   -
-   115-
                                 SUMMARY OF AUDIT                 REPORTS ISSUED
                               DURING THE CURRENT                 REPORTING  PERIOD



During  the current          semiannual  reporting          period     April   1,   1981 to September    30,   1981,
we issued 251 audit          reports  as follows:



DEPARTMENT          OF LABOR

     Employment        and     Training     Administration
        CETA       Sponsors:

          State and Local Prime Sponsors                                                          133
          Native American      Grantees                                                            22
          Migrant   and Seasonal Farmworkers     Grantees                                          15
          Job Corps Contractors                                                                    15
          National Programs for Older Workers                                                       I
          Office of Policy, Evaluation and Research Grantees                                       21
          Technical   Assistance    and Training Contractors                                        2
          Other National     Programs   Grantees

                                                    Subtotal                                            215

        State      Employment      Security      Agencies                                                 6
        Internal      Audits                                                                              2

     Occupational Safety           and     Health     Administration
       OSHA Sponsors                                                                                     17

     Mine Safety and Health               Administration
       MSHA   Sponsors                                                                                    8

     Assistant Secretary for Administration and Management
       OASAM   Contractors                                                                                2


OTHER    FEDERAL        AGENCIES
     Health     and    Human     Services                                                                 1

                                                    Total                                               251




                                                       - 116-
-   117   -
                                                   U


                                                   >
                                                   0
                                                                                  Z_



                o                    _m                     _        o            g_g               ooo                _

                S   d
                    g
                                     __
                                     zO
                                     _Z
                                                   w
                                                   kaU
                                                       _         d_
                                                                 U <z
                                                                                  ooo
                                                                                  III
                                                                                                    <<<
                                                                                                    ZZZ        _ a_oo
                                                                                                    _5_o_               mm
                                     O_            _z<                    _       _


                                     _
                                                        _        _                _
                                                                                  NNN
                                                                                                    _OOO'
                                                                                                    uoumm__
                                                                                                                       --
                                                                                                                      ' ' °

                    0                DzU_O                                m       zzz
                       _  _
                    _<ZUUNZ_zz_<_>                                                _
                                                                                  _                 _zz_
                                                                                                    =_zz_
0 _             _   __DD_OOu--                                                    000               000_----


                                                                                                    O0         0000
--_                                                                                                 0000000
_                   _0___0_                                               _                         0000000
_                         Z               _0       o    000000                    _             <    '''''''
                                                                                                    0000000
0 m             Z   _li_                      ' __0_
                                                 ' ' ' ' ' ' ' '                  ooo
                                                                                  000                ' ' ' , ' ' ,
                                                                                                    ___
                                          0    _   __                     0       _         _   _   ___
_           _        IIIllllllllll                                                    ill           0000000




                         _0     _ _  _                                            _                 0000000
                        ,,TTT,,,T                                    __           000                 II'III
_                   ooooooooooooo                                                                   TTTTTTT
0                                                                                                   ___
      -                                                                                             000o000




                          _0_0_0__                                                _                 ___

          _ _   _   0000000000000                                                 000               0000000




                                                                                                    >>>>>>>




                                                                 -   118      -
                                         >>
>>>>>>>>>>>>>>>>>>>>>>>>

                           -   119   -

                   . .,-
               J
          i/
                          0




                                          w                              _Z            UU      z

                                                                           0
                          _z          _
                                    0 _-
                                                  >
                                                Z_w
                                                      '
                                                     OU
                                                        8   _
                                                          _ZZ
                                                              _88_
                                                              U<
                                                                      _°
                                                                      _<_U
                                      -
                                    u_<         _ oo _Q _o- w_Q_ __ _ _w     o_
                                                                             o m

                          08        z             o _ _ _         -   _-_
mS
m

_m
_                     _   _         _0_0_0_0_0_0__0__0
0 _                   _   m_        __o___m_m____m
_      _        _         O_        000_000_0000000_00000000000
_      _        "--       0_ _      0__0_
                                    0 _ _00000                  _0_0_0__0__
                                                             _00000           _0   _   _0000000000   _

                           II        IIIIIIIIIIIIIIllllllllllllll
                D _       O0        0000000000000000000000000000
                _         O_        0__00__00__00_000_000
_0--              8       _         __________




----            0     _         _   r_______O___
_                         _         00000_00__000____



           _7             O0        0000000000000000000000000000




                          >>        >>>>>>>>>>>>>>>>>>>>>>>>>>>>


                                                     - 120         -
>>>>>   >>>>>>>>>>     >>>>>>>


            -   121-
                                                                                                      U
                         _                                                                            z
                0        0              _                  _


                o   _             _     _                  Q     _                    _               <
                                  o_        .                    o                    u       o       o



                    _z       =_2_                   ==     z     _    o_ _o_aM_8°_
                m
                    =_
                    _0
                             _¢__._
                             0_0_0--_
                                                           _0    __   _
                                                                      <
                                                                         =_oz_o_
                                                                         <--_00_


_d

_               _   O0       0000__                        _     _    _    ___
                    O0       00000000                      0     0    0     iiiiiii


_m
_           _
                E
                _   _
                     ,_      _&4'4'_            _
                                                    ' '    _
                                                             '   __   __   __o
                                                                           _0_0_
0   _       ._ _    _        _0__00                        _     _    _    __ _000_0
                                                                               _ _ _          I   _   _

                     , ,     TTTTVVTT                      V                          , , ,           ,




_       _           _0       O_r_                          _     _    _    _00_0


        _   _   7   O0       00000000                      0     0    0    0000000




                    _        >>>>>>>>                      _     x_   x_   xxxxxxx

                                            -       122-
                                                                                                              d

                                              W                                                   _           Z
                                              _                                                   v           u
              m                               0                                                   _
              L                                    _                                              w      __

                               w              _    _
                                                   U          _
                                                              w                    _              _      _0
                                                                                                         --
                                                             8_
                  <o           >          _             _)         _       m       B       oo     _oZz
                       _                           _w                      _               ZZ     w      _0

                  S_           _0         Z_8_D_                           Z       Z       _      _
                                    _              S__°                    _
                                                                           o       -       °°     _88 z
                                              --              _Z           --      _       _      _ww_
              _        _                Z_g_ZZZ_                           _       w       _      _ZZ_



_                                                                                          _      _0_
--_           _   _____-                                                                   O0     0000
                                                       '_A$4           _   _
                                                                           o       _
                                                                                   o        ''     '_ ''
              -   _'          omo
                              _               m_
                                              _0                   OC'         I       _   oo
                                                                                           _      0_g_oo
            --_        ' ' ' ' ' ' ' ' ' ' ' ' ' '                         U       O        ' '    , ' ' '



_
              ® __&&&&&&&&&&&
              _ 000000000000000
                                                                           o       o       oo
                                                                                           _
                                                                                                  oooo
                                                                                                  _ _ _       _




0


                  ___0__                                                   0       0       O0     0_

      S--         000000000000000                                          0       0       O0     0000




                  XXXXXXXXXXXXXXX                                          X       X       ××     XXXX

                                                   -    12.3-
                                                                                       <




                                  _ _                                        ooo<_za
                                                                         _III_


                                  <_                        oooo _           _z__
                 o                o_
                                  _o_5_______                            _ooo m _ _ o_
                                  OO m  0000                                        Oz
                     0            _                         __z              <<<m_          z          o
                     o_           __                        __-__zz_z_o>                        _ .
                     =o
                     z_           _<____                    __         -Z<I_z_         -   _o   zz_


                             m

--_              _   go
                     oO



_     _        _ _       I   0    ________                                                      000
0     _        _              _   O000rO000_O_                           _   _   _000_0_        _
_                    _             llll||lllllJ|lll|illll                                        Ill
               =_        , ,      TTTTT_TTTTTT_TTTTTTTT                                         _

_0--             _   _
D




__----    _          _            0000000000000000000000                                        000


          __     _   oo           00oo0000000000o0000000                                        000




                     _            <<<<<<<<<<<<<<<<<<<<<<                                        UO0
                     _            zzzzzZzzzzzzzzzzzzzzzz                                        mmm




                     XX           ZZZZZZZZZZZZZZZZZZZZZZ                                        ZZZ
                                  0000000000000000000000                                        000

                                                            -   124-
                                                                                          Z
                                                             U            U       U       0
                  c                                          0            0       0




                  L            _     U        U _                                     _   NOU>
                                                        _        _    _   _=_>                    -z




                      _            8 _Z_o               _-_o_
                                                        _            _    _._-=z__--_x
                                                                          _        _z_


_                     ,,,,,,,,,,,,
                      0___0_                            ,__
                                                        _                 ,,,,,,,_,,
                                                                          _r__                    _0
0 _           _       ____                              __                O000_O_r
_             _       , , , , , ,        , , , ,T       , , , , , ,       , TTTT,         TTTT

_0--              _




0     .
          C           _        _         __             _        _        __                  _
_         _   0   C   00000000000_                      __                ___0
_                     ____                              __                ___0_
--        ___
              __      000000000000                      000000            0000000000




                      000000000000                      ZZZZZZ            ____
                      ____                              000000            0000000000




                      ZZZZZZZZZZZZ                      ZZZZZZ            ZZZZZZZZZZ
                      000000000000                      000000            0000000000

                                               - 125-
                                         m
                               I          I



    , ,                _____


00000000000
  ____                 _____
                       ZZZZZZZZZZZZZZZ




ZZZZZZZZZZZ            ZZZZZZZZZZZZZZZ
00000000000            000000000000000


              - 126-
                                                m
                                                <

                                                <                   z
                                                                    u

                                           _    _                   Z



                                   zo<
                                   -   _ _      _
                                                0                   z-
              o

                    __             u 0<_        _       O0

              _                 __              o       o_           ,
                                   ozone_
                  '00000_0                      --     _0

                    _<_              _          0       ZZ          0
              _     __0_                        I       O0




_         _          , , , , , , , ,             ,         , ,      T
0 _                 o___
                    __0_                        _
                                                _       _
                                                        _           o
_ _       _ _       0000000_                    _       _

_w            _     __o_
                     IIIIIIII                   T       _T I        -

D




                    0    _ _000_                _      "_

      m             00000000                    0       O0          0




                     IIIIIIII                    0         <<       <

                                                                0




                     ZZZZZZZZ                    Z         ZZ       Z
                     00000000                    0         O0       0

                                               - 127   -
                           zILl
                            N
                            E
                      L
                      o    U


                           2
                      _    z

                           (J
                      _    z
      co              m    _
a_                    Z    Z
ILl



if)


I"-m                       U

                           (M


_                     _    o


al-

,<,'-

o

_...I            cO O (-   '_"
_ne
      -


           Z
           W


                           1"
           •-_             -r"

           u.l

           U,-




           •1-             0
           I-              Z
           Oi
                                             _U.S. G_ER_T.   P_INTING C_'FICEt 1981--361-270/_932




                                  -   128-
